 
 
 
 
 
 
 
 
 
 
 
    Office of Inspector General
 
 
               for the
    Railroad Retirement Board
 
 
 
 
 
 
 
 
 
 
 
 
 
                       Semiannual Report to
 
                          the Congress
 
 
 




       April 1, 2011   September 30, 2011
                 UNITED STATES RAILROAD RETIREMENT BOARD

                            OFFICE OF INSPECTOR GENERAL


                                    October 31, 2011


The Honorable Michael S. Schwartz, Chairman
Railroad Retirement Board
844 North Rush Street
Chicago, Illinois 60611-2092

Dear Mr. Schwartz:

I am pleased to submit our Semiannual Report to the Congress. This report
provides a descriptive summary of our activities and accomplishments during the
period of April 1, 2011 through September 30, 2011. This report is submitted in
accordance with Section 5 of the Inspector General Act of 1978, as amended.
The Act requires that you transmit this report, along with any comments you may
wish to make, to the appropriate Congressional committees and subcommittees
within 30 days.

During this reporting period, we issued seven audit reports with questioned costs
totaling over $7 million. In addition, we issued two special reports titled Railroad
Medicare Fraud Detection Contracts: Lessons Learned and Office of Inspector
General’s Proposal to Improve Business Efficiency at the Railroad Retirement
Board.

Our criminal investigators achieved 9 arrests, 24 criminal convictions,
15 indictments and informations, 10 civil judgments, and more than $8.5 million
in financial accomplishments resulting from OI’s investigative work, including joint
investigations.

The Office of Inspector General sincerely appreciates the ongoing assistance
extended to our staff during the performance of their audits and investigations.
We look forward to a continued cooperative relationship.

                                                 Sincerely,

                                                 Original Signed by

                                                 Martin J. Dickman
                                                 Inspector General




844 N RUSH STREET CHICAGO IL 60611-2092                               Printed on recycled paper
                                   Office
                                        e of Inspec
                                                  ctor Gene
                                                          eral for the
                                                                     e 




                                                                                                
                                         Ra
                                          ailroad Re
                                                   etirement Board


INTROD
     DUCTION ............................................................................................................. 1
    Railro         ment Board .......................................................................................... 1
         oad Retirem
        d Members ........................................................................................................... 1
    Board
    Office           or General .......................................................................................... 2
         e of Inspecto
EXECUT       MARY................................................................................................. 2
     TIVE SUMM
         e of Audit .............................................................................................................. 2
    Office
    Office           gations ................................................................................................ 3
         e of Investig
      1 2011 – SEPTEMBER 30, 2011 ACCOMPLISHMENT
APRIL 1,                                       TS ................................... 4
         e of Audit .............................................................................................................. 4
    Office
       Aud
         dit of Contro
                     ols Over Ra         dicare Conttract Costs ....................................... 5
                               ailroad Med
       Aud
         dit of Railroad Retirem                    payments and Internal Controls ....... 7
                               ment Act Benefit Overp
       Revview of the Railroad Retirement Board’s
                                          B       Seccurity Patch
                                                                h Managem
                                                                        ment Processs .. 9
       Aud
         dit of Interna
                      al Controls Over Dummy Vendorr Transactio
                                                              ons ................................ 10
       Insp
          pection of the Railroad
                                d Retiremennt Board’s Agency
                                                      A       Entterprise Ge    eneral
       Info
          ormation Suupport Syste
                                em Certifica
                                           ation and Accreditatio
                                                     A          on .................................. 12
       Insp
          pection of the Railroadd Retiremen  nt Board’s Financial
                                                               F              M
                                                                              Managemen         nt System’s
       Conntinuous Mo onitoring Prrogram............................................................................. 13
       Evaaluation of the
                      t Railroad
                               d Retirement Board’s Benefit and                d Payment Operationss
       Sysstem Contin nuous Monitoring .............................................................................. 14
       Man
         nagement Decisions
                  D         a Implem
                            and    mentation ......................................................... 15
    Office           gations .............................................................................................. 16
         e of Investig
       Currrent Caselo
                     oad ................................................................................................... 16
       Currrent Caselo
                     oad By Casse Type............................................................................ 17
       Inve
          estigative Accomplishm
                     A         ments .............................................................................. 18
    Repre
        esentative Investigations .................................................................................... 19
       Disa           stigations .......................................................................................... 19
          ability Inves
       Une
         employmen                      e Investigattions .............................................. 20
                 nt - Sicknesss Insurance
       Rettirement-Su
                    urvivor Bene          epresentatiive Payee Investigatio
                               efits and Re                               ons ............... 22
       Railroad Medic
                    care Investigations ........................................................................... 23
       Civiil Enforcem
                     ment Resultss ...................................................................................... 24


 
    Table
        e of Conttents
                                  Office
                                       e of Inspec
                                                 ctor Gene
                                                         eral for the
                                                                    e 




                                                                                              
                                        Ra
                                         ailroad Re
                                                  etirement Board


    Hotline Contacts
                   s ........................................................................................................ 25
OTHER OVERSIGHT ACTIVIITIES ............................................................................... 26
America
      an Recovery                   A of 2009 ...................................................... 26
                y and Reinvvestment Act
    Occup
        pational Dis           gram ................................................................................ 26
                   sability Prog
    Railro
         oad Medicarre Fraud De
                              etection Co          essons Learrned ............................. 27
                                        ontracts: Le
    Propo
        osal to Imprrove Busine
                              ess Efficiency at the Railroad
                                                    R        Rettirement Bo
                                                                          oard.............. 28
    Unem
       mployment Insurance Program
                           P       ........................................................................... 30
OUTREA
     ACH ACTIV
             VITIES.............................................................................................. 30
     TIONAL ISSUES............................................................................................... 32
OPERAT
    Nation          d Investment Trust............................................................................ 32
         nal Railroad
LEGISLA
      ATIVE & REGULATO
              R               W ................................................................... 33
                     ORY REVIEW
     DICES ............................................................................................................... 34
APPEND
    Appenndix A – Offfice of Insp    pector Gene       eral Reportss and Other Publicly Available         A
    Paperrs Issued ............................................................................................................ 35
    Appenndix B – Auudit Reportss with Quesstioned Cossts or with Recommen       R                 dations Tha      at
    Fundss be Put to Better Use ....................................................................................... 36
    Appen
        ndix C – Re
                  eport on Re
                            eceivables, Waivers, and
                                                 a Recove
                                                        eries .............................. 37
    Appen
        ndix D – Sig
                   gnificant Ma
                              atters ............................................................................... 39
    Appen
        ndix E – Pe
                  eer Reviewss ...................................................................................... 40
    Appen
        ndix F – Re
                  eports Prepared by Ma
                                      anagement ...................................................... 41
    Appen
        ndix G – Re
                  eporting Re
                            equirementss ..................................................................... 48
    Appen
        ndix H – Ac
                  cronyms ............................................................................................ 49
    Appen
        ndix I – Leg
                   gal References .................................................................................. 50




 
    Table
        e of Conttents
                          Office
                               e of Inspe
                                        ector Gene
                                                 eral for the 




                                                                        
                               Railroad Re
                                         etirement Board



       IN
        NTROD
            DUCTIO
                 ON
       R
       Railroad
              d Retirem
                      ment Board
The Railroad Retire ement Boarrd (RRB) iss an independent agen   ncy in the executive
branch of
        o the Fede eral governmment. The RRB admin     nisters com
                                                                 mprehensive e disability,
retireme
       ent-survivorr, and unem
                             mployment-ssickness insurance be    enefit progra
                                                                             ams for the e
nation's railroad wo
                   orkers and their
                                t    familie
                                           es. These programs area codified under the
Railroadd Retiremennt Act (RRAA) and the Railroad
                                           R        Unnemployme  ent Insurancce Act (RUIIA),
respectivvely. The RRB’s
                    R      centtral mission is to pay accurate
                                                      a         and timely RR
                                                                            RA and RUIA
benefits.

During fiscal
        f      year (FY)
                    (     2010, the
                                 t RRB pa   aid approximmately $10.8 billion, net of
recoveries and offs setting colle
                                ections, in retirement and
                                                       a survivor benefits to  o roughly
582,000 0 beneficiaries. The RRB also pa    aid roughly $136.1 million, net of recoveries and
offsetting collection
                    ns, in unemployment and a sicknesss insurance e benefits to
                                                                              t almost
22,000 unemploym
         u         ment insuran nce beneficciaries and 18,000 sickkness insurrance
beneficiaaries.

The RRB  B also has administrattive respon nsibilities forr certain be
                                                                     enefit payments under the
Social Security
       S         Actt, including the adminisstration of Medicare
                                                         M           benefits for qualifying
                                                                                  q
railroad workers an nd depende  ents. Pursu uant to statuutory autho ority, the RR
                                                                                 RB, in
consultaation with th
                    he Centers for Medicare and Med      dicaid Serviices, award ds and mon  nitors
the single nationwid de Medicarre Part B Se  ervices con ntract. During FY 2010   0, the Railro
                                                                                              oad
Medicarre contracto or processe ed more tha an 10 millionn Railroad Medicare PartP B claim  ms
worth ovver $869 million in paid d medical innsurance benefits
                                                        b          on behalf of more
                                                                                 m     than
468,000 0 Railroad Medicare
                    M          be
                                eneficiariess.

       B
       Board Members
             M     s

The Boa ard consists
                   s of three members
                              m          whho are appoointed, with
                                                                 h the advice
                                                                            e and conse ent
of the Se
        enate, by th
                   he Presiden nt of the Un
                                          nited Statess. One Boa ard member is appointted
upon thee recomme endation of railroad em mployers, annother mem mber is appoointed uponn the
recomm mendation off railroad la
                               abor organizzations, and the third, who is the Chairman, is
appointeed to repres
                   sent the public’s intere
                                          est. Board Members’ terms
                                                                  t     are five years in
                                                                                        n
length and expire in
                   n staggered d years.


Semiannual Repo
              ort to the Congress
                         C                              011 – Septe
                                              April 1, 20         ember 30, 2011              1
 
 
                          Office
                               e of Inspe
                                        ector Gene
                                                 eral for the 




                                                                         
                               Railroad Re
                                         etirement Board



       O
       Office off Inspector Gene
                               eral

The Railroad Retire ement Solvvency Act off 1983 ame  ended the RRA
                                                                R   to provvide for an
Office off Inspector General (O
                              OIG) for the RRB. The   e 1988 ameendments too the Inspector
General Act added the RRB to   o the list of covered ag
                                                      gencies.

The Insppector General is a Prresidential Appointee,
                                          A            with Senatee confirmattion, who
serves as
       a an indep  pendent and d objective voice to bo
                                                     oth the RRB B Board Me  embers and  d the
Congresss. It is the
                   e Inspector General’s responsibilit
                                          r            ty to promo
                                                                 ote econom my, efficienccy,
and effe
       ectiveness in the RRB’s programss and opera   ations. To that
                                                                  t    end, th
                                                                             he OIG
conducts audits/evaluations, manageme
                               m           nt reviews, and inspecctions of thee RRB’s
programms and operrations. Ass a product of its effortss, the OIG offers recommendatio   ons
for agen
       ncy improve ement to RR RB manage  ement. The e OIG also identifies and
                                                                             a investig  gates
cases off waste, fra
                   aud, and abuse in the RRB’s
                                          R       prog
                                                     grams and operations.
                                                                  o             The OIG
works cllosely with Federal proosecutors and
                                          a makes the approp     priate referra
                                                                              als for criminal
prosecution, civil prrosecution, monetary recovery, or
                                                     o administrrative sancttions.

The OIGG has appro  oximately 50 employee    es assigned d to three operational
                                                                     o            componentts:
the immediate Offic ce of the Inspector Ge  eneral, the Office
                                                         O      of Auudit, and thee Office of
Investiga
        ations. The  e OIG cond  ducts operaations from several locations: the   e RRB
headqua arters in Chhicago, Illino
                                 ois; an inve
                                            estigative fie
                                                         eld office in
                                                                     n Philadelphhia,
Pennsylvania; and domicile in   nvestigativee offices in Arlington,
                                                         A           V
                                                                     Virginia; Houston, Texa  as;
Miami, Florida;
        F        Neww York, New   w York; andd San Dieg go, Californiia. These domicile
                                                                                 d         offfices
provide increased investigativ
                     i          ve presence e and aide ini the effective and effficient
coordinaation of join
                    nt investigattions with other
                                            o      Inspecctor Genera al offices an
                                                                                 nd law
enforcemment agenc  cies.

       E
       EXECUTIVE SU
                  UMMAR
                      RY
       O
       Office off Audit

The Office of Audit (OA) conducts financcial, perform
                                                    mance, and compliance  e audits annd
        ons/inspecttions of the
evaluatio                     e RRB’s pro
                                        ograms and  d operationss. During th
                                                                           his reporting
period, the
        t OA:

   •   conducted an
                  a audit to determine
                             d          iff adequate oversight procedures
                                                               p          and contro
                                                                                   ols
       over Railroa
                  ad Medicaree contract costs
                                        c      have been
                                                    b     estab
                                                              blished;
Semiannual Repo
              ort to the Congress
                         C                              011 – Septe
                                              April 1, 20         ember 30, 2011              2
 
 
                         Office
                              e of Inspe
                                       ector Gene
                                                eral for the 




                                                                      
                              Railroad Re
                                        etirement Board



   •   re
        eviewed RR
                 RA benefit overpayme
                            o       ents and inte
                                                ernal contro
                                                           ols;

   •   completed th heir audit to
                                o determine
                                          e whether thhe RRB’s patch
                                                                 p   manaagement
       policies, pro
                   ocedures, and practice es are in com
                                                      mpliance with
                                                                w the Fedderal
        nformation Security Ma
       In                       anagementt Act of 20002 (FISMA) requirements and if th
                                                                                     he
       security controls over patch
                                p     manaagement are e in place and
                                                                 a operatin
                                                                          ng as intended;

   •              he RRB’s in
       evaluated th         nternal conttrols over “d
                                                    dummy ven
                                                            ndor” transa
                                                                       actions;

   •   conducted an
                  a inspectio on to determ
                                         mine whether the activvities condu ucted at the
       RRB for the certification and accre
       R                                 editation off the Agency Enterprise General
       In
        nformation Support Syystem comp  ply with exissting policyy, procedure
                                                                             es, guidancce,
       and standarrds;

   •   evaluated th
                  he activitiess conducted
                                         d at the RRB
                                                    B for the co
                                                               ontinuous monitoring
                                                                         m             o
                                                                                       of
       th
        he Financia
                  al Managem  ment systemm to determ
                                                   mine adhere ence with exxisting policcy,
       procedures, guidance, and standa  ards; and

   •   evaluated th
                  he activitiess conducted
                                         d at the RRBB for the co
                                                                ontinuous monitoring
                                                                          m          o
                                                                                     of
        he Benefit and
       th          a Payme    ent Operatioons system to determine adheren nce with
       existing polic
                    cy, proceduures, guidance, and sttandards.

OA’s acttivities, during this rep
                                porting periood, are disccussed in fu
                                                                    urther details on Pagess 4
through 14 of this report.
                    r        All publically
                                 p          avvailable rep
                                                         ports are avvailable on our website
                                                                                           e
at www.rrb.gov/oig.

       O
       Office off Investig
                        igations
The Office of Inves
                  stigations (O
                              OI) focuses its efforts on
                                                      o identifyin
                                                                 ng, investig
                                                                            gating, and
presenting RRB be enefit fraud cases for prosecution
                                         p           n. OI conduucts investig
                                                                            gations
       out the Unitted States relating to:
througho

   •   th
        he fraudulent receipt of
                               o RRB disa
                                        ability, unem
                                                    mployment--sickness, and
                                                                         a retirement-
       survivor bennefits;
   •   R
       Railroad  Meedicare fraud;
   •   fa
        alse reportin
                    ng by railro
                               oad employe
                                         ers; and
   •   criminal viola
                    ations and misconducct by RRB personnel.
                                                    p

Semiannual Repo
              ort to the Congress
                         C                            011 – Septe
                                            April 1, 20         ember 30, 2011             3
 
 
                                              Office
                                                   e of Inspe
                                                            ector Gene
                                                                     eral for the 




                                                                                         
                                                          Railroad Re
                                                                    etirement Board


Investiga
        ative efforts
                    s can resultt in criminal conviction
                                                       ns; civil judg
                                                                    gments and d penalties;
administtrative reco
                   overy of pro
                              ogram bene   efit funds; an
                                                        nd/or admin nistrative sa
                                                                                anctions.

From Ap
      pril 1, 2011 through Se
                            eptember 30,
                                     3 2011, OI achieved:

      •      9 arrests;
      •      15 indictmen nts and info
                                     ormations;
      •      24 convictions;
      •      10 civil judgments;
      •      68 referrals to the Depaartment of Justice;
                                                 J       andd
      •      m
             more  than $8.5 million 1 in financia
                                                 al accomplisshments.

Defendaants, in the aggregate,, were sentenced to more
                                                   m    than 344 years of jail, 60 yearrs of
probatio
       on, 3 years of suspendded sentencces, and 800 hours of community
                                                              c            s
                                                                           service.
Addition
       nal details re
                    egarding OI’s
                             O activitiess are discussed on Paages 16 thro ough 24.

             APRIL 1,
             A     1 2011 – SEPT
                               TEMBE
                                   ER 30, 2011
                                          2
             A
             ACCOMMPLISHHMENTS S
             O
             Office off Audit
Congresss establish hed the OIGG to provide
                                          e independe  ent oversight of the RRRB. Withinn the
OIG, the
       e mission off OA is to promote
                               p        ecoonomy, efficiency, and d effectiveness in the
administtration of th
                    he RRB’s prrograms an nd operation ns; and to detect
                                                                  d       and prevent fraud,
waste, and
       a abuse. Through th      he Inspecto
                                          or General, OA keeps Board Mem     mbers and the
                                                                                         t
Congresss informed  d of current and potenttial problem
                                                      ms and deficciencies in the RRB’s
operatio
       ons. OA als  so tracks the agency’ss progress towards
                                                      t        corrrective action.

Brief sum
        mmaries off all audits completed
                               c         d
                                         during this semiannua
                                                             al reporting period follo
                                                                                     ow.




                                                       
1
  The tota
         al amount of financial accom mplishments reflect
                                                    r     fraud ammounts related to programss administered
                                                                                                         d
exclusivelyy by the RRB and fraud am mounts from otther Federal programs
                                                                 p         suchh as Medicare
                                                                                           e or Social Seccurity
which werre included in the disposition resulting fro
                                                    om the investig
                                                                  gation.

Semiannual Repo
              ort to the Congress
                         C                                                    011 – Septe
                                                                    April 1, 20         ember 30, 2011     4
 
 
                                              Office
                                                   e of Inspe
                                                            ector Gene
                                                                     eral for the 




                                                                                         
                                                          Railroad Re
                                                                    etirement Board



             Audit of Controlls Over Railroad
             A                       R      d Medica
                                                   are Contract
             C
             Costs
OA publlished the results
                   r       of their audit en
                                           ntitled Auditt of Controlls Over Raililroad Mediccare
Contract Costs on April
                     A    20, 20
                               011. This audit
                                           a      was coonducted to o determine
                                                                              e if adequatte
oversighht procedures and con  ntrols over Railroad
                                           R         Meedicare con ntract costs have been  n
                                                                                         2
establishhed. The audit
                   a     focuseed on contro ols over Pa
                                                      almetto GBA   A, LLC’s (P
                                                                              Palmetto)
direct labor timekeeeping withinn the Opticaal Characteer Recognittion (OCR), Medical
Review, and Custo omer Servicce units. Th  hey also revviewed the effectivene ess of the
RRB’s contract
        c        ma
                  anagement and cost re    eimburseme  ent processses during FYs
                                                                               F 2008 and  a
2009.

Key Fin
      ndings

OA iden
      ntified the fo
                   ollowing we
                             eaknesses:

      •      Deleted customer service recordss, inaccessible medical review do
             D                                                                  ocumentatioon,
             and inadequ
                       uate OCR support
                                 s          for claims
                                                c      proccessed resu
                                                                     ulted in the questioning of
             R
             Railroad Me
                       edicare costts totaling approximate
                                               a           ely $7.1 milllion.

      •      Controls for ensuring th
             C                      hat costs arre applied to
                                                           t the propeer accountinng period in
                                                                                             na
             timely mannner were inaadequate and the meth   hod of supp
                                                                      porting dire
                                                                                 ect labor cosst
             adjustmentss was not suufficient.

      •      Railroad Me
             R          edicare claim
                                    ms processsing and cost data included signifficant
             in
              nconsistenc
                        cies which could
                                    c    impacct the integrity of Railrroad Medica
                                                                                 are program
                                                                                           m
             costs.

      •      T OCR re
             The    eporting sysstem did no
                                          ot always tra
                                                      ack Railroad Medicare
                                                                          e data corre
                                                                                     ectly.

      •      Controls to ensure
             C           e      thatt timesheetss are subm
                                                         mitted by emmployees an
                                                                               nd approved
                                                                                         d by
             m
             managers   on a timely basis
                                    b     were not fully efffective.

      •      The RRB ha
             T          as not estab
                                   blished ade
                                             equate overrsight and controls
                                                                   c        ove
                                                                              er Railroad
             M
             Medicare in accordance with its co
                                              ontract requ
                                                         uirements.
                                                       
2
  Since April
        A     2000, the RRB has con
                                  ntracted with Palmetto
                                                P        to be
                                                             e its nationwide Railroad Me
                                                                                        edicare Part B
contractorr.
Semiannual Repo
              ort to the Congress
                         C                                                    011 – Septe
                                                                    April 1, 20         ember 30, 2011   5
 
 
                        Office
                             e of Inspe
                                      ector Gene
                                               eral for the 




                                                                     
                             Railroad Re
                                       etirement Board




Key Rec
      commenda
             ations

To addre
       ess the identified weaknesses, OA
                                      O recommended that RRB officia
                                                                   als:

   •   Work with Palmetto to establish
       W                        e        a procedure for maintaining the Customer
       S
       Service Unitt’s call volume recordss in accorda
                                                     ance with contract archival
       re
        equirementts and require Palmettto to providee timely acccess to doccumentation
                                                                                      n
       supporting work
                  w      performmed by the
                                         e Medical Review
                                                    R       Unit..

   •   Work with Palmetto to establish
       W                       e        a reconciliation processs between OCRO     total
       hours billed and total hours worke
                                        ed that will validate
                                                     v        the
                                                                e integrity of costs
       re
        eimbursed.

   •   Review the questioned
       R          q          costs totalling $7.1 million and determine if they are
       allowable.

   •   Require Palmetto to esstablish an accounting
       R                                   a           procedure for detectin
                                                                            ng and
       validating co
                   osts charge
                             ed to prior fiiscal years beginning with
                                                                 w the sta art of the ne
                                                                                       ew
       contract yeaar.

   •   Require Palmetto to esstablish con
       R                                ntrols and procedures that will ide
                                                                          entify signifiicant
       differences impacting
                    i        R
                             Railroad  Me
                                        edicare claims volumee, hours cha arged, and
       costs billed.

   •   Work with Palmetto to determine
       W                     d         w claims were incorrrectly repo
                                       why                           orted on the
                                                                                e
       O
       OCR  report..

   •   Require thatt Palmetto communica
       R                      c        ate timekee eping procedural requirements to all
       m
       managers  and employe  ees and periodically perform rand
                                                              dom timeshheet checkss to
       ensure Palm
                 metto complies with proocedures.

   •   D
       Develop   proved conttract oversight procedures and co
               imp                                          ontrols.

     ement’s Re
Manage        esponse

RRB agreed to takee correctivee action on 11 out of 15 audit reccommendations and will
                                                                                  w
                  alysis to determine how
conduct further ana                      w to addresss the rema aining recom       ons.  
                                                                           mmendatio

Semiannual Repo
              ort to the Congress
                         C                           011 – Septe
                                           April 1, 20         ember 30, 2011              6
 
 
                        Office
                             e of Inspe
                                      ector Gene
                                               eral for the 




                                                                  
                            Railroad Re
                                      etirement Board


Howeve er, RRB did not agree to
                              t review thhe question
                                                   ned costs in
                                                              ncurred by the
                                                                         t Custommer
Service Unit ($3.1 million) and
                              d incurred by
                                         b Medicaree Review Unit
                                                             U ($3.7 million)
                                                                       m      durin
                                                                                  ng
FYs 20008 and 2009 9.  

       Audit of Railroad
       A               d Retire
                              ement Ac
                                     ct Beneffit Overp
                                                     paymen
                                                          nts
       a Interrnal Con
       and             ntrols

OA revieewed Railrooad Retirem
                             ment Act beenefit overp
                                                   payments (RRRA overpa   ayments) and
internal controls. The
                   T objectivves of the audit were to
                                                    o assess th
                                                              he sufficienccy of internal
controls as related to the main
                              n causes off RRA overpayments anda identifyy opportunitties
to impro
       ove the effectiveness of
                             o controls over
                                         o    the debt recognitiion processs.

Finding
      gs

      ntified the fo
OA iden            ollowing we
                             eaknesses:

   •   R
       RRA overpa
                ayments are
                          e not alwayys processe
                                               ed timely.

   •   C
       Completene
                ess of recorrds among agency
                                      a      sysstems is nott always ve
                                                                      erified.

   •   S
       Separation of
                  o duties is not alwayss enforced for
                                                   f RRA ove
                                                           erpayment transaction
                                                                               ns.

   •   C
       Control logs
                  s and assura
                             ance reportts were nott always rettained.

   •   T
       Training atte
                   endance reccords were
                                       e not alwayss maintaine
                                                             ed.

   •   M
       Managemen
               nt control do
                           ocumentation is not co
                                                onsistent with
                                                          w standard
                                                                   ds.

   •   Second auth
       S         horizations for RRA ovverpaymentts exceedin
                                                           ng $10,000 are not takking
       place.

   •   D
       Duplicate RR
                  RA overpayyments werre not deteccted.

   •   Authorization can be om
       A                     mitted for Retirement
                                        R          Online Calcculation RR
                                                                        RA
       overpaymen nts.



Semiannual Repo
              ort to the Congress
                         C                          011 – Septe
                                          April 1, 20         ember 30, 2011          7
 
 
                        Office
                             e of Inspe
                                      ector Gene
                                               eral for the 




                                                                     
                             Railroad Re
                                       etirement Board


     mendation
Recomm       ns

       ove internal controls and
To impro                     a their efffectiveness, OA recom
                                                            mmended agency
manageement:

   •   Establish an
       E           nd implement time stan  ndards for RRA
                                                       R      beneffit overpaym
                                                                              ments and
       sttrengthen internal con
                              ntrols to enssure their id
                                                       dentification
                                                                   n and timelyy processin
                                                                                         ng.

   •   Develop and
       D         d implemen nt controls tot ensure th
                                                    he complete
                                                              eness of RR
                                                                        RA
       overpaymennt data as itt is transferred betwee
                                                    en systems..

   •   Modify the Overpayme
       M          O          nt Recoverry Correspo
                                                 ondence Syystem privile
                                                                       eges to enssure
       proper separation of du
                             uties.

   •   Im
        mplement controls
                 c        to ensure
                             e      thatt the accounnts receivable system control log
                                                                                    gs
       and assuran
                 nce reports are maintaained for insspection.

   •   E
       Ensure that proof of tra
                              aining attendance is do
                                                    ocumented and mainta
                                                                       ained.

   •   Work with th
       W           he Managem   ment Contrrol Review Committee
                                                     C         to revise managemen
                                                                         m            nt
       control docuumentation to be consiistent with Governmen
                                                     G        nt Accountaability Office
                                                                                      e
       sttandards fo
                   or internal control.
                               c

   •   Strengthen the
       S          t internal controls ovver the reviiew and approval proccess for RRRA
       overpaymennts greater than
                              t     $10,00
                                         00 to ensurre that apprrovals comp
                                                                          ply with age
                                                                                     ency
       procedures for authorizzations.

   •   Remind examiners of proper
       R                   p      proccedures for handling exxisting RRA
                                                                       A
       overpaymen
                nts notices and
                            a strengtthen internaal controls to
                                                             t ensure th
                                                                       hat duplicatte
       overpaymen
                nts are not created.
                            c

   •   Update the edits
       U           e     in the Retiremen
                                        nt Online Ca
                                                   alculation program
                                                              p       to ensure
                                                                         e      thatt
       authorization
                   n is obtaineed when req
                                         quired.




Semiannual Repo
              ort to the Congress
                         C                           011 – Septe
                                           April 1, 20         ember 30, 2011             8
 
 
                           Office
                                e of Inspe
                                         ector Gene
                                                  eral for the 




                                                                          
                                Railroad Re
                                          etirement Board


     ement Resp
Manage        ponses

The Office of Progrrams agree
                            ed to take co orrective acction on sevven of the ten
                                                                             t
recomm mendations directed
                   d       to them. How  wever, theyy disagreed with the finndings and
recomm mendations regarding
                   r         the timeliness of RRA overpayme     ent processsing and
separation of duties
                   s. The Burreau of Fisccal Operatioons agreed to take corrrective action
on all four recommendations directed
                              d        to them.

       Review of
       R      o the Ra
                     ailroad Retirem
                             R     ment Boa
                                          ard’s Sec
                                                  curity
       P
       Patch Ma
              anagemment Process

OA cond ducted an audit
                   a     to dete
                               ermine wheether the RRB’s patch manageme    ent policiess,
proceduures, and prractices are
                              e in complia
                                         ance with FISMA requirements an   nd if the
security controls ov
                   ver patch managemen
                              m          nt are in pla
                                                     ace and ope
                                                               erating as in
                                                                           ntended.

FISMA requires
        r           agencies to establish
                                  e         annd maintain a security manageme       ent programm
that inclu
         udes timely y and securre installatioon of softwa  are patchess. Patch managemen
                                                                                   m            t is
a securitty practice designed to   o prevent thhe exploitattion of inforrmation technology (IT T)
vulnerabbilities that exist within
                                 n an organizzation. Pattches are ad     dditional pie
                                                                                     eces of cod
                                                                                               de
developed to addre   ess securityy flaws and problems in    i software. Timely installation of
security patches is generally recognized
                                  r             as critical to
                                                            t maintaining the ope   erational
availabillity, confide
                     entiality, and
                                  d integrity of
                                              o IT system  m.

In a separately issuued restricteed distributtion report, OA commu unicated thaat the RRB’s
security patch man nagement policies,
                                p         pro
                                            ocedures, and practice es comply with
                                                                              w FISMA
requirem
       ments. How   wever, while e security controls
                                            c         oveer patch ma
                                                                   anagement are in placce,
they are
       e not fully efffective or operating
                                 o          ass intended. OA made  e 13 detailed
                                                                               d
recomm mendations to t RRB ma   anagement for improve    ement in:

   •   procedures for the remediation of identified vulnerabilitie
                                                    v            es;

   •   sttandards fo
                   or timely ressolution of remediation
                                            r         n requests;

   •   vulnerability scanning procedures
                              p          for personal compute
                                                            ers and servvers;

   •   th
        hird-party software seccurity updattes;


Semiannual Repo
              ort to the Congress
                         C                               011 – Septe
                                               April 1, 20         ember 30, 2011                9
 
 
                        Office
                             e of Inspe
                                      ector Gene
                                               eral for the 




                                                                   
                            Railroad Re
                                      etirement Board



   •   m
       monthly serv
                  ver patching process;

   •   security patc
                   ch management proce
                                     ess perform
                                               mance reporrts;

   •   notification of
                    o mainfram
                             me compute
                                      er updates; and

   •    nformation security
       in          s        policies and procedures
                                         p          .

Agency manageme
              ent has agrreed to take
                                    e corrective action for all
                                                            a recommendations.

       Audit of Internall Contro
       A                       ols Overr Dummy
                                             y Vendo
                                                   or
       T
       Transacttions
OA releaased their report
                   r      titled Audit of Internal Conttrols Over Dummy
                                                                  D       Venndor
Transacctions on Auugust 4, 2011. Some funds are obligated
                                                       o         in the Federa
                                                                             al Financiall
System (FFS) witho out being associated
                               a             w a speccific person or a vendo
                                             with                           or, using
“dummyy vendor” as s the vendo or name forr travel, relo
                                                       ocation expense, and service
                                                                             s       order
transacttions. The objective
                    o                        w to evalluate the RRB’s internal controls over
                               off the audit was
dummy vendor tran  nsactions.

      gs
Finding

      ntified the fo
OA iden            ollowing we
                             eaknesses:

   •   S
       Service orde
                  er disbursements were
                                      e not alwayys consisten
                                                            ntly recorde
                                                                       ed in FFS.

   •   T
       Travel disbu
                  ursements did
                            d not alwa
                                     ays include required documentation.

   •   T
       Travel agency fees were not reconciled to RR
                                                  RB travel vouchers.
                                                            v

   •   S
       Service orde
                  er obligation
                              ns did not include the required ap
                                                               pprovals.

   •   Guidance fo
       G         or the use of       endor transsactions has not been officially
                            o dummy ve
       documentedd.




Semiannual Repo
              ort to the Congress
                         C                          011 – Septe
                                          April 1, 20         ember 30, 2011           10
 
 
                        Office
                             e of Inspe
                                      ector Gene
                                               eral for the 




                                                                    
                             Railroad Re
                                       etirement Board


     mendation
Recomm       ns

To improove the inte
                   ernal contro
                              ols over dum
                                         mmy vendo
                                                 or transactio
                                                             ons, OA reccommended
that age
       ency manag  gement:

   •   Id
        dentify, reco
                    oncile, and post all errroneously purged
                                                      p      transactions to the
       corresponding FFS ven   ndor docum ment cross-rreference ta
                                                                 able.

   •   Develop pro
       D          ocedures to reconcile and
                                        a post FF FS disburseements in th
                                                                        he docume
                                                                                ent
       re
        eference table to the vendor
                              v      docu
                                        ument crosss-reference
                                                             e table.

   •   Strengthen the
       S          t review and
                           a approvval controls for travel vouchers
                                                           v        an
                                                                     nd supporting
       documentation.

   •   Isssue a reminder notice
                              e to agencyy employees regarding
                                                             g appropriate
       documentation for traveel voucherss.

   •   Strengthen controls
       S          c        to ensure thatt disbursem
                                                   ments are supported by RRB travvel
       vouchers.

   •   R
       Remind trav
                 velers to incclude all fee
                                          es on their travel
                                                      t      vouch
                                                                 hers.

   •   Take corrective action for the note
       T                                 ed discrepa
                                                   ancies to en
                                                              nsure that th
                                                                          he appropriate
       re
        eimbursements are ma  ade.

   •   Strengthen the
       S           t second-level revieew and apprroval proce
                                                            ess for service order
       obligation ap
                   pproval requests subm
                                       mitted via e--mail.

   •   Isssue formall guidance for the requ          ond-level approval for obligationss.
                                          uest of seco

   •   D
       Develop pro                   endor transsactions in FFS.
                 ocedures for dummy ve

Manage
     ement Resp
              ponses

The Burreau of Fisc
                  cal Operatioons agreed with the fin
                                                    nding regarrding the incconsistent
recordin
       ng for somee service ord
                              der disburssements, bu            ed that the entries to the
                                                    ut they state
table we
       ere purged and that theey can no longer be iddentified. They
                                                               T     agreed d to take


Semiannual Repo
              ort to the Congress
                         C                 April 1, 20
                                                     011 – Septe
                                                               ember 30, 2011           11
 
 
                          Office
                               e of Inspe
                                        ector Gene
                                                 eral for the 




                                                                        
                               Railroad Re
                                         etirement Board


correctivve action fo
                    or the other seven reco
                                          ommendatio  ons directe
                                                                ed to them. The Officee of
Administration agre                                   he three recommenda
                    eed to take corrective action on th                    ations directted
to them..

       In
        nspectioon of thee Railroad Retirrement Board’s
                                                B       Agency
                                                             y
       E
       Enterprisse Gene eral Inforrmation
                                        n Supporrt System
                                                        m
       C
       Certifica
               ation andd Accred ditation
OA cond ducted an inspection to determine   e whether the
                                                        t activitie
                                                                  es conducteed at the RR
                                                                                        RB
for the certification
        c                      ditation of th
                      and accred            he Agency Enterprise General In  nformation
Support System (A   AEGIS) commply with exxisting policcy, procedurres, guidan
                                                                             nce, and
standardds.

FISMA requires
         r         agencies to establish
                               e           an
                                            nd maintain an agencyy-wide secu     urity
manage  ement progrram that inccludes testing of securrity controlss with a freq quency thatt is
no less than
          t     annua
                    ally. In addition to testting securityy controls, an
                                                                      a agency official musst
authorizze the systeem for proceessing. This authoriza   ation must beb in writingg and mustt
occur att least everyy three yea
                               ars. In FY 2010,
                                            2       RRB hired a con  ntractor to conduct
                                                                                 c          a
certificattion and ac
                    ccreditation,, currently referred
                                             r        to as
                                                          a a system m authoriza ation, for
AEGIS.

In a separately issuued restricteed distributtion report, OA commu   unicated tha at the activities
conducted at RRB for the certtification an  nd accredita ation do nott fully compply with exissting
policy, procedures,
        p            , guidance, and standa  ards. In OA A’s FY 2009  9 FISMA re eport, they cited
                                                                                              c
the RRB B with a significant defficiency in in
                                             nternal control over the certification and
accreditation proce ess because  e of an inefffective reviiew processs for contraactor
deliverables. OA’s  s inspection found thatt the interna al control sttructure ove
                                                                                 er the
certificattion and ac
                    ccreditation process is still a significant deficciency. OA made three    e
recomm  mendations tot RRB ma  anagement:

   •   to
        o develop a comprehe ensive revie
                                        ew process that include   es a compaarison of the
                                                                                        e
       documents for
                   f consisteency and veerification th
                                                     hat all of the
                                                                  e requireme
                                                                            ents for
       applicable controls are adequatelyy addressed;
   •   to
        o review priior plan of action
                                a      and milestones
                                           m            (POAM) iteems and up
                                                                           pdate the
       current agenncy-wide PO  OAM to incclude all outtstanding weaknesses
                                                                 w         s for the AE
                                                                                      EGIS
       syystem; and
                  d


Semiannual Repo
              ort to the Congress
                         C                              011 – Septe
                                              April 1, 20         ember 30, 2011              12
 
 
                         Office
                              e of Inspe
                                       ector Gene
                                                eral for the 




                                                                      
                              Railroad Re
                                        etirement Board



   •   to
        o develop and
                  a implement detailed   d POAM prrocedures fo    or maintain
                                                                            ning the
       in
        nformation necessary to allow ind
                                        dependent verification
                                                      v            and validation of POAAM
       closures, an
                  nd for tracking of agenccy correctivve action byy the Chief Information
                                                                                        n
       O
       Officer.

Agency Manageme
              ent has agrreed to take
                                    e corrective actions forr all recomm
                                                                       mendationss.


       In
        nspectio
               on of the
                       e Railroad Retirrement Board’s
                                              B        Financiial
       M
       Managem ment Syystem’s Continuuous Mo onitoring
                                                     g Progra
                                                            am

OA cond  ducted an inspection to evaluate the activitie
                                                      es conducte
                                                                ed at the RRB for the
continuo
       ous monitorring of the Financial
                               F        M
                                        Managemen    nt system to
                                                                o determinee adherence e
with exissting policy, procedure
                               es, guidancce, and stanndards. This inspectio
                                                                           on directly
supportss the OIG’s s mandated FISMA eva   aluation.

The obje ective of the
                     e continuou
                               us monitorinng program m is to deterrmine if the set of
deployed security controls
                     c       conntinue to be
                                           e effective over
                                                       o     time in
                                                                   n light of the
                                                                                e inevitable
                                                                                           e
changess that occurr. Continuo ous monitorring program ms provide organizatio   ons with ann
effective
        e mechanism to update   e certain se
                                           ecurity docuuments. In FY 2010, the  t RRB hired
a contraactor to perfform continuous monittoring testinng of the coontrols overr the Financcial
Manage  ement syste em.

In a separately issuued restricte
                                ed distributtion report, OA commu unicated tha at the RRB’s
continuoous monitorring process does not fully complly with existting policy, proceduress,
guidance, and stan  ndards. As a result, thhe RRB’s significant deeficiency in internal co
                                                                                         ontrol
over the
       e certificatio
                    on and accrreditation prrocess remains in effeect because e of an
ineffectivve review process
                    p       for contractor deliverable es. OA mad  de five deta
                                                                              ailed
recomm mendations to t RRB ma  anagement for improve    ement in:

   •   controls ove
                  er the review
                              w process of
                                        o the contin
                                                   nuous mon
                                                           nitoring delivverables;
   •   th
        he overall planning
                   p        pro
                              ocess for th
                                         he continuous monitoring program
                                                                        m; and
   •   th
        he Bureau of
                  o Fiscal Op
                            perations’ portion
                                       p       of th
                                                   he RRB’s agency-wide
                                                                      e POAM.

Agency Manageme                     e corrective actions forr all recomm
              ent has agrreed to take                                  mendationss.



Semiannual Repo
              ort to the Congress
                         C                            011 – Septe
                                            April 1, 20         ember 30, 2011              13
 
 
                         Office
                              e of Inspe
                                       ector Gene
                                                eral for the 




                                                                     
                             Railroad Re
                                       etirement Board



        Evaluatio
        E       on of the Railro
                               oad Retirrement Board’s
                                               B       Benefitt
        a Paym
        and     ment Op peration
                               ns Syste
                                      em Contiinuous Monitor
                                                      M     ring

OA cond ducted an evaluation
                    e         o the activiities conduccted at the RRB for the
                              of                                             e continuouus
monitoring of the Benefit
                   B      and Payment Operations
                                        O             s
                                                      system   to determine
                                                                  d         a
                                                                            adherence   w
                                                                                        with
existing policy, proc
                    cedures, gu
                              uidance, annd standard ds. This evaluation alsso directly
supportss the OIG’ss mandated FISMA eva   aluation.

The objeective of thee continuou
                               us monitorinng program m is to deterrmine if the set of
deployed security controls
                    c        conntinue to be
                                           e effective over
                                                       o     time in
                                                                   n light of the
                                                                                e inevitable
                                                                                           e
changess that occurr. Continuo ous monitorring program ms provide organizatio   ons with ann
effective
        e mechanism to update   e certain se
                                           ecurity docuuments. In FY 2010, the  t RRB hired
a contraactor to perfform continuous monittoring testinng of the coontrols overr the Benefiit
and Payyment Operrations systtem.

In a separately issuued restricte
                                ed distributtion report, OA commu unicated tha at the RRB’s
continuoous monitorring process does not fully complly with existting policy, proceduress,
guidance, and stan  ndards. As a result, thhe RRB’s significant deeficiency in internal co
                                                                                         ontrol
over the
       e certificatio
                    on and accrreditation prrocess remains in effeect because e of an
ineffectivve review process
                    p       for contractor deliverable es. OA mad  de five deta
                                                                              ailed
recomm mendations to t RRB ma  anagement for improve    ement in:

    •   controls ove
                   er the review
                               w process of
                                         o the contin
                                                    nuous mon
                                                            nitoring delivverables;
    •   th
         he overall planning
                    p        pro
                               ocess for th
                                          he continuous monitoring program
                                                                         m; and
    •    he Office off Programs’ portion of the RRB’s agency-wid
        th                                                     de POAM.

Agency Manageme
              ent has agrreed to take
                                    e corrective actions forr all recomm
                                                                       mendationss.

 




Semiannual Repo
              ort to the Congress
                         C                            011 – Septe
                                            April 1, 20         ember 30, 2011            14
 
 
                         Office
                              e of Inspe
                                       ector Gene
                                                eral for the 




                                                                      
                              Railroad Re
                                        etirement Board



       M
       Managem
             ment De
                   ecisions and Imp
                                  plementtation

As part of
        o its oversight activitie
                                es, OIG tracks the age  ency’s implementation  n of audit
recommmendations. Additionallly, Office ofo Managem    ment and Bu  udget Circuular No. A-5
                                                                                          50
(Revisedd) and the Inspector
                   I          G
                              General   Actt Amendme   ents of 1988 8 require the reporting of
manage ement decissions and co  orrective acctions for all audit reco
                                                                    ommendatio  ons.

                                  Managem
                                        ment Decis
                                                 sions
            Requirin
                   ng Manage
                           ement Decission on Aprril 1, 2011                   0
            Pending
                  g Managem
                          ment Decisio
                                     on for New
                                                                               0
            Recommmendationss
            Manage
                 ement Decision on Pre
                                     evious Reco
                                               ommendatiions                   0
            Recommmendationss Pending Managemen
                                      M       nt Decision
                                                        n on
                                                                               0
            Septem
                 mber 30, 201
                            11



                                     Corre
                                         ective Actio
                                                    on
            Recomm
                 mendationss Requiring Action on April
                                                 A     1, 201
                                                            11                1
                                                                              143
            Recomm
                 mendationss Issued Du
                                     uring Reporrting Period
                                                           d                   6
                                                                               66
            Corrective Actions Completed
                                       d During Re
                                                 eporting Pe
                                                           eriod               18
            Recomm
                 mendationss Rejected During Rep
                                               porting Period                  4
            Final Ac
                   ctions Pend
                             ding on Sep
                                       ptember 30, 2011                       1
                                                                              187




Semiannual Repo
              ort to the Congress
                         C                            011 – Septe
                                            April 1, 20         ember 30, 2011             15
 
 
                                              Office
                                                   e of Inspe
                                                            ector Gene
                                                                     eral for the 




                                                                                          
                                                          Railroad Re
                                                                    etirement Board



             O
             Office off Investig
                              igations

OI's prim
        mary objecttive is to ide
                                entify, invesstigate, and
                                                        d refer for prosecution or monetarry
recoveryy action cas ses of wastte, fraud, orr abuse in the RRB’s programs.
                                                                     p            OI also see eks
to preveent and dete er program fraud by re eporting sysstemic weaknesses in the RRB’s
operatioons and pro ocesses as identified th hrough inveestigative work.
                                                                    w      In ord
                                                                                der to maxim  mize
the impaact of its res
                     sources, OI continues to pursue cooperative     e investigattive activitie
                                                                                              es in
coordinaation with other
                    o     Inspecctors Generral and law enforceme    ent agencies, such as the
Federal Bureau of Investigatio  on, the U.S. Secret Se  ervice, and the Postal Inspection
Service.

             C
             Current Caseloa
                           ad

During this semiannual reporting period, OI reviewe
                                                  ed 239 mattters and op
                                                                       pened 184 new
                                                                                 n
cases.

                                                           I
                                                           Investigative Caseloa
                                                                               ad Data
                 Investigatiive Cases Open
                                      O    as of April 1, 2011                                   4
                                                                                                 458
                 Investigatiive Cases Opened
                                      O      Du
                                              uring Reporrting Period                            1
                                                                                                 184
                 Investigatiive Cases Closed
                                      C      Durring Reportiing Period                            9
                                                                                                  95
                 Investigatiive Cases Open
                                      O    as of September 30, 2011                              5
                                                                                                 547
 
OI’s currrent caselo
                   oad totals 54                                han $40 million 3 in
                               47 matters,, representiing more th
potential fraud. The chart locaated on the
                                         e next page reflects thee distributio
                                                                             on of OI casses
and poteential fraud losses by RRB majorr program area.
                                                    a




                                                       
3
  This refle
           ects potential fraud amountts related to prrograms admiinistered exclu
                                                                                usively by the RRB and pottential
fraud amo ounts from other Federal pro ograms such as Medicare oro Social Secu  urity which havve been identtified
during OI’ss joint investig
                          gative work.

Semiannual Repo
              ort to the Congress
                         C                                                     011 – Septe
                                                                     April 1, 20         ember 30, 2011     16
 
 
                               Office
                                    e of Inspe
                                             ector Gene
                                                      eral for the 




                                                                                      
                                   Railroad Re
                                             etirement Board



        C
        Current Caseloa
                      ad By Ca
                             ase Type
                                    e


                     75
                      5 Cases
                                            55 C
                                               Cases
                   $30.9
                       9 Million
                                           $1.4 Million
                                                                        Other**
                                                                        Disability
     61 C
        Cases                                                           Unemp
                                                                            ployment & Sicckness
    $1.4 M
         Million                                                        Retirem
                                                                              ment
                                                                        Medicaare


                                                           153 Cases
                                                          $3.8 Millon



                203 Casses
               $2.6 Milllion



*Other case type is an amalgam of various typess of cases invvolving matterrs such as missconduct by RRB
                                                                                                     R
employeees, threats aga
                      ainst agency employees, false
                                               f     reportingg by railroad employers,
                                                                            e          annd others.




Semiannual Repo
              ort to the Congress
                         C                       April 1, 2011
                                                           0 – Septe
                                                                   ember 30, 2011                   17
 
 
                                              Office
                                                   e of Inspe
                                                            ector Gene
                                                                     eral for the 




                                                                                          
                                                          Railroad Re
                                                                    etirement Board



             In
              nvestiga
                     ative Ac
                            ccomplis     s4
                                   shments

                                                                        April 1, 2011 –
    Action                                                                                   Fisc
                                                                                                cal Year 20
                                                                                                          011
                                                                      Septem
                                                                           mber 30, 20011
    Referra
          als to the De
                      epartment of
                                o Justice                                      68                   111

    Indictments/Inform
                     mations                                                   15                   67
    Arrests                                                                    9                    15
    Convicttions                                                               24                   62
    Civil Co
           omplaints                                                           4                     6
    Civil Judgments                                                            10                   21
    Restituttion and Fin
                       nes                                                $5.6 Million          $
                                                                                                $103 Million
                                                                                                           n
    Civil Da
           amages and
                    d Penaltiess                                          $1.7 Million          $
                                                                                                $2.1 Million
    Investig         overies 5
           gative Reco                                                    $1.1 Million          $
                                                                                                $1.4 Million
    Commu
        unity Servic
                   ce Hours                                                    80                   600




                                                       
4
 The total amount of fin
                       nancial accom
                                   mplishments in n this table refllect fraud amo ounts related to
                                                                                                t programs
administerred exclusively by the RRB and fraud am mounts from otther Federal programs
                                                                                 p           such
                                                                                                h as Medicare
                                                                                                            e or
Social Seccurity which were
                       w    included in the disposittion resulting from
                                                                   f     the invesstigation.
5
 RRB ben  nefits that are
                        e overpaid due to fraud and d can be reco
                                                                ouped through
                                                                            h RRB admin
                                                                                      nistrative reco
                                                                                                    overy
action are
         e expressed as a investigativve recoveries..

Semiannual Repo
              ort to the Congress
                         C                                                    011 – Septe
                                                                    April 1, 20         ember 30, 2011         18
 
 
                         Office
                              e of Inspe
                                       ector Gene
                                                eral for the 




                                                                       
                              Railroad Re
                                        etirement Board



       Representative Investig
       R                I    gations
       A
       April 1, 2011
                2    – Septemb
                       S     ber 30, 2011

       D
       Disability
                y Investtigations
                                s

OI cond ducts fraud investigatio
                               ons relating
                                          g to the RRB's disabilitty program. Railroad
workerss who are awarded
                  a         a disability
                               d          nnuity by the RRB are subject to work
                                         an
restrictions and ea
                  arnings limittations. Dissability ben
                                                      nefit fraud often
                                                                  o     involve
                                                                              es
sophisticated sche emes to hidde disqualifyying work activities
                                                      a         fro
                                                                  om the RRB B.

During this reportin
                   ng period, OIO obtained                                       d cases. The
                                           d six convicctions in dissability fraud
defendaants receiveed, in the aggregate,
                               a            s
                                            sentences   t
                                                        totaling 5 months
                                                                   m         of ja
                                                                                 ail, 13 ½ yea
                                                                                             ars
of proba
       ation, 40 hoours of commmunity serrvice, and were
                                                       w      ordereed to pay ap pproximately
$240,0000 in restitu
                   ution, fines, and civil damages/pe  enalties.

Descrip
      ptions of rep
                  presentative
                             e cases com
                                       mpleted du
                                                uring this reporting perriod follow.

       A
       Annuitant
               t Guilty of
                        o Submittting False Statem
                                                 ments to th
                                                           he RRB
OI Speccial Agents investigated an RRB disability
                                            d         annnuitant wh
                                                                  ho failed to accurately
                                                                               a
report hiis income received
                   r          fro
                                om his familly businesss and from his
                                                                   h job as a school buss
driver. The
        T annuita  ant’s failuree to report his
                                            h excess earnings
                                                        e        to the RRB caused
                                                                              c      him to
fraudule
       ently receive
                   e more than   n $30,000 in disability payments.

This casse was referred to the United States Attorne  ey’s Office for
                                                                  f the Northern Districct of
New York which en    ntered into a Plea Agreeement withh the annuiitant. Unde
                                                                            er the termss of
this agre
        eement, the  e annuitant pled guilty to one cou                     a agreed to
                                                      unt False Sttatements and
pay full restitution
         r           and
                     a was se   entenced to two years of probation.

       A
       Annuitant
               t Concealled Earniings from
                                         m the RRB
                                                 B
 
OI Speccial Agents investigated an RRB disability
                                           d         annnuitant whho conceale
                                                                            ed his earnings
from thee RRB. Thrrough the course of their investigation, they discovered  d that both the
                                                                                        t
annuitan nt and his spouse
                    s       earnned wages and housin   ng from the same emp ployer;
howeverr, they direc cted the em
                               mployer to pay
                                           p all wage  es to the sp
                                                                  pouse. Thee annuitant’’s
failure to
         o report his income, including free
                                           e housing, to the RRB B caused him to
frauduleently receivee more thann $15,000 in disability payments.
Semiannual Repo
              ort to the Congress
                         C                   April 1, 20
                                                       011 – Septe
                                                                 ember 30, 2011              19
 
 
                         Office
                              e of Inspe
                                       ector Gene
                                                eral for the 




                                                                      
                              Railroad Re
                                        etirement Board


This casse was referred to the United States Attorneey’s Office for
                                                                 f the Northern Districct of
New York. The annuitant ente  ered into a Plea Agree ement with the United States
Attorneyy’s Office. Under
                    U     the terms
                              t     of thiss agreemen nt, the annuuitant pled guilty to on
                                                                                         ne
count Faalse Statemments and agreed
                              a      to pay full restittution and was
                                                                  w senten   nced to two
years off probation.  

       U
       Unemplo
             oyment - Sickne
                           ess Insu
                                  urance In
                                          nvestiga
                                                 ations

Unemplo  oyment Inssurance (UI) - Sicknesss Insurancee (SI) beneffit fraud typ
                                                                             pically involvves
individua
        als claiming
                   g and receivving UI or SI
                                          S benefits while
                                                      w      workiing or colleccting state
administtered unemmployment benefits.
                               b         O receives the
                                         OI           t majorityy of these cases
                                                                              c       from the
RRB’s Disability,
        D         Sickness, annd Unemplo  oyment Ben nefits Divisiion as a ressult of
informattion developped throughh state wagge matching g programss. The RRB   B conducts
compute er wage ma atches with various staates to iden
                                                     ntify claimannts who ma ay have
collected
        d RRB adm ministered UI
                              U or SI bennefits on the
                                                     e same dayys they rece   eived wagess
from a private
        p       empployer or on the same days
                                          d     they received
                                                     r          sta
                                                                  ate adminisstered
unemplo oyment ben nefits.

Since thhe American n Recoveryy and Reinvvestment Acct of 2009 and
                                                                a the Wo   orker,
Homeow   wnership, and
                   a Businesss Assistance Act of 2009 temporarily extended UI ben      nefits
to certain railroad workers,
                    w        OI has seen a substantial increasee of UI fraud
                                                                           d referrals.
In fact, roughly
         r       92%% of OI’s cu
                               urrent UI fra
                                           aud cases involve exte
                                                                ended UI be enefits.

During this reportin
                   ng period, OIO obtained seven convictions and six civil ju  udgments foor UI
and SI frraud casess. Defendan    nts in these                      he aggregatte, 16 ½ years
                                             e cases recceived, in th
of proba
       ation, 40 hoours of community servvice, and werew      orderedd to pay mo
                                                                               ore than
$130,0000 in restituttion, fines, and civil da
                                             amages/pen  nalties.

The follo
        owing are examples
                  e                              mpleted duriing this reporting perio
                           off UI and SI cases com                                  od.

        U Claimant Enters
        UI                      s into a Pretrial
                                           P          Diiversion Agreeme
                                                                   A            nt
         
OI initiatted an investigation off an RRB UI claimant based
                                                        b       upon
                                                                   n an agencyy referral. OI’s
subsequ  uent investigation deteermined tha at during the
                                                        e period of January 20 009 through h
August 2009,
          2     the claimant
                    c         appplied for RR
                                            RB UI bene efits on the same
                                                                    s      days he was
working and being paid by a private
                                p        empployer. He submitted
                                                         s         a total of 15
                                                                               5 false claim
                                                                                           ms
when ap  pplying for benefits
                     b        by intentionally not reporrting his em
                                                                   mployment. His actions
resulted in the theftt of more th
                                han $8,000 in UI beneffits.
Semiannual Repo
              ort to the Congress
                         C                  April 1, 20
                                                      011 – Septe
                                                                ember 30, 2011            20
 
 
                         Office
                              e of Inspe
                                       ector Gene
                                                eral for the 




                                                                       
                              Railroad Re
                                        etirement Board


This casse was referred to the United States Attorne  ey’s Office for
                                                                   f the Easttern Districtt of
Missouri. The claim
                  mant entere  ed into an 18
                                          1 month Pretrial Diversion agree  ement with the
United States
        S     Attorrney’s Office for violation of False
                                                      e Statements. Under this
                                                                             t    agreemment,
the claim
        mant must pay
                   p full resttitution and report regu ularly to a U.S.
                                                                   U Pretriaal Services
Officer for
        f 18 months or until full
                               f restitutioon has been paid to th  he governm
                                                                            ment.

       C
       Claimant Fraudule
                       ently App
                               plied for both
                                         b    UI an
                                                  nd SI Ben
                                                          nefits
 
OI initiatted an investigation off an RRB cllaimant bassed upon an  n agency re eferral. OI’s
subsequ  uent investigation deteermined tha at during the
                                                        e period of Septemberr 2007 throu    ugh
Novemb   ber 2007, th
                    he claimant applied forr RRB UI be   enefits on the
                                                                    t same da   ays he wass
working and being paid by a private
                                p        empployer. The e investigation further revealed
                                                                                r          that
during thhe period of
                    o January 2008
                                2      througgh August 2008,
                                                        2      the cllaimant appplied for RRRB
SI beneffits on the same
                     s      days he was wo  orking and being
                                                        b      paid by
                                                                    b a privatee employer..
The claimant subm   mitted a tota
                                al of 16 false
                                             e claims annd collected
                                                                   d more than n $10,000 in  n
frauduleent UI and SI
                    S benefits.

This case was refe erred to the
                              e United Staates Attorne ey’s Office for the Disttrict of
Colorad
      do. The Un  nited Statess Attorney’ss Office filed
                                                       d an indictmment charging the claimmant
with False Stateme ents and Fa alse Claimss. He enterred into a plea
                                                                   p     agreemment and wa as
sentencced to five years
                   y      of pro
                               obation andd ordered to o pay full re
                                                                   estitution plu
                                                                                us a specia
                                                                                          al
assessmment.

       U Claimant Fails to
       UI               t Reportt Work an
                                        nd Earnin
                                                ngs to the
                                                         e RRB
 
OI initiatted an investigation off an RRB UI claimant based
                                                         b      upon
                                                                   n an agencyy referral. OI’s
subsequ  uent investigation deteermined tha at during the
                                                        e period of July 2007 through
                                                                              t        Maarch
2008, thhe claimant collected RRB
                                R     UI bennefits on the
                                                        e same dayys he was working
                                                                             w        for a
private employer.
         e           The
                     T claima  ant’s failure to report hiis work and
                                                                   d earnings to
                                                                              t the RRB
caused him to fraud  dulently recceive more than $11,0  000 in UI be
                                                                   enefits.

This casse was referred to the United States Attorne ey’s Office for
                                                                  f the Easttern Districtt of
Californiia. The United States Attorney’s Office filed
                                                     d an informa  ation against the annu
                                                                                        uitant
for Theftt of Govern
                   nment Propeerty. The annuitant
                                        a           plled guilty annd was senntenced to 3
years off probation, 40 hours of
                              o communiity service, and full resstitution.




Semiannual Repo
              ort to the Congress
                         C                             011 – Septe
                                             April 1, 20         ember 30, 2011             21
 
 
                          Office
                               e of Inspe
                                        ector Gene
                                                 eral for the 




                                                                        
                               Railroad Re
                                         etirement Board



       Retireme
       R       ent-Surv
                      vivor Be
                             enefits and Reprresentattive Pay
                                                            yee
       In
        nvestiga
               ations
The RR RA providess retirementt-survivor benefits
                                         b        for qualified ra
                                                                 ailroad workkers and the
                                                                                        eir
familiess. RRB retirement-surrvivor beneffit fraud typ
                                                     pically involvves:

   •   an individual failing to report
                                r      inform
                                            mation to th
                                                       he RRB tha
                                                                at may disqualify the
       annuitant fro
                   om receiving benefits;

   •   in
        nstances off theft and/o
                               or fraudulen
                                          nt cashing of
                                                     o retiremen nt benefit checks by
       someone other than the  e authorizeed RRB ann nuitant; or

   •   an individual designateed to receivee RRB bennefits on behalf of an RRB
                                                                           R   annuita
                                                                                     ant
       frraudulently using the funds
                               f     for their own perrsonal use.

                   ng period, OI
During this reportin          O obtained
                                       d the following civil jud
                                                               dgment.

       A
       Annuitant
               t’s Son Steals Ove
                                er $170,0
                                        000 in RRB
                                                 B Benefitts
 
An annu uitant’s son failed to re
                                eport his fatther’s death
                                                        h to the RRB and frauddulently
collected
        d over $170 0,000 in RR RB retireme ent benefits. OI’s investigation re
                                                                              evealed thatt the
annuitannt had passsed away in  n January 1992; howevver, RRB continued to    o issue annuity
checks in
        i his name e until Augu ust 2006. Special
                                            S        Ageents determined that th
                                                                              he son cashhed
the annuuitant’s ben
                   nefit checkss and conve  erted the beenefits for his
                                                                    h own perssonal use.

This casse was referred to the United States Attorne  ey’s Office for
                                                                   f the Distrrict of
Columbiia. The sub bject and th
                              he United States
                                         S       Attornney’s Officee entered innto a
Settlemeent Agreemment which required the subject to   o pay full re
                                                                   estitution wiith the initia
                                                                                             al
$90,0000 due within
                  n 5 days of the
                               t agreem  ment and the  e remaining g balance due
                                                                               d in equa     al
monthly installments. The sub bject paid the initial $9
                                                      90,000 but defaulted
                                                                    d          o the rest of
                                                                               on            o
the paymments. Subbsequently,, the Unitedd States Atttorney’s Offfice filed a civil
                                                                                c compla     aint
against the
         t subjectt in Federal District Co
                                         ourt. The Court
                                                     C      grante ed a Consent Judgmen      nt
against the
         t subjectt for the rem
                              mainder of the
                                          t restitutio on.




Semiannual Repo
              ort to the Congress
                         C                              011 – Septe
                                              April 1, 20         ember 30, 2011              22
 
 
                                              Office
                                                   e of Inspe
                                                            ector Gene
                                                                     eral for the 




                                                                                         
                                                          Railroad Re
                                                                    etirement Board



             R
             Railroad
                    d Medica
                           are Inves
                                   stigation
                                           ns
During this reportinng period, OIO obtained 11 convictions and 3 civil judgments in
Railroadd Medicare fraud cases. Defenda       ants in thesse cases received, in the aggrega ate,
more tha an 34 years s of jail, 30 years of prrobation, annd were ord dered to payy more than
                                                                                            n
$7 millio
        on in restitution, fines, and civil da
                                             amages/pen    nalties. 6

All of OI’s active Medicare casses are being worked jointly with the Office of Inspecto or
General for the U.S S. Departmeent of Health and Hum
                                                   man Service  es, the Officce of Inspector
General for the Offfice of Perso
                               onnel Mana agement, or
                                                   o other age  encies respo onsible for
        ating health
investiga           h care fraud
                               d. Interagency cooperration is impperative to effective la
                                                                                        aw
enforcemment espec  cially among
                               g agencies responsiblle for investtigating the
                                                                            e complexities
of health
        h care fraudd.

The follo
        owing are examples
                  e        off Railroad Medicare
                                        M        ca
                                                  ases completed during
                                                                      g this reporrting
period.

             D
             Doctor Ag
                     grees to Repay
                              R     Mo
                                     ore Than $28,000
 
OI initiatted this inve
                      estigation pursuant
                                 p        to a referral from
                                                        f    the Offfice of Inspector Geneeral
for the Department
         D            t of Health and
                                  a Human   n Services. The subse equent jointt investigatiion
revealed d that the subject doctor had frauudulently billed Medicaare for a higgher level off
service than
          t     was actually beinng performeed.

This casse was referred to the United States Attorne ey’s Office for
                                                                 f the Soutthern Districct of
Illinois. The doctorr entered into a Settlem
                                           ment Agreeement with the United States
Attorneyy’s Office ag
                    greeing to repay
                                r     more e than $28,0
                                                      000.




                                                       
6
 This tota
         al reflects the full
                         f amount of restitution, fin
                                                    nes, and civil damages/pena
                                                                    d            alties ordered. Since OI’s
Railroad Medicare
         M           fraud
                         d cases are jo
                                      oint investigatio
                                                      ons, the total dollar amountt includes lossses to other he
                                                                                                               ealth
care progrrams.
Semiannual Repo
              ort to the Congress
                         C                                                    011 – Septe
                                                                    April 1, 20         ember 30, 2011         23
 
 
                          Office
                               e of Inspe
                                        ector Gene
                                                 eral for the 




                                                                        
                               Railroad Re
                                         etirement Board



       D
       Doctor Se
               entenced to 30 Mo
                               onths of Jail
                                        J
 
OI initiatted this inve
                      estigation pursuant
                                 p          to a referral from
                                                          f    the Offfice of Inspector Gene eral
for the U.S.
         U Office of  o Personnel Managem      ment. The subsequen   nt investigaation was a
collaborative effort between OI,O the Officce of Inspecctor Genera   al for the U.S. Office off
Personn  nel Manage  ement, the Office
                                  O      of Insspector General for the Departme   ent of Healtth
and Hum  man Service  es, and thee Federal Bureau of Invvestigations. Their invvestigation
determin ned that the e target docctor routinely billed the
                                                          e governme ent for high level office
                                                                                             e
visits on
        n individuals s who neveer actually re eceived thee services or
                                                                     o receive re educed
servicess.

This casse was referred to the United States Attorne  ey’s Office for
                                                                  f the Easttern Districtt of
Louisian
       na. The Un nited Statess Attorney’s Office indicted the do octor for He
                                                                             ealth Care
Fraud. The
        T doctor pled guilty and was sentenced to       o 30 monthhs of prison, 3 years off
supervissed release
                  e, more than n $1 million
                                          n in restitutio
                                                        on, and a special
                                                                  s       asseessment fee e.

       C
       Civil Enfforceme
                      ent Resu
                             ults
OI may pursue civ  vil actions to
                                o obtain jud
                                           dicial orderss for the reccovery of fuunds
frauduleently obtain
                   ned by annu  uitants or cllaimants. These
                                                        T       civil actions
                                                                      a        are
                                                                                 e typically
broughtt under the provisions of the Falsse Claims Act.A     This sta atute allowss the
governm ment to reccover up to treble damages as we     ell as $5,5000 to $11,00 00 for each
false cla
        aim submittted.

During this semian  nnual reporrting period, a total of 10
                                                         1 civil judg
                                                                    gments werre entered by
                                                                                         b
U.S. Disstrict Courts for RRB fraud
                                f       casess totaling more
                                                        m    than $11.7 million in
                                                                                i damagess
and pen nalties. Some of these   e civil actio
                                             ons are purssued underr the Departtment of
Justice’’s Affirmativ
                    ve Civil Enfforcement program
                                             p         wh
                                                        hich providees an efficie
                                                                                ent and
effective
        e means to o address frraud againsst the RRB’s programss.




Semiannual Repo
              ort to the Congress
                         C                              011 – Septe
                                              April 1, 20         ember 30, 2011               24
 
 
                        Office
                             e of Inspe
                                      ector Gene
                                               eral for the 




                                                                    
                             Railroad Re
                                       etirement Board



      H
      Hotline Contacts
              C      s
The OIGG established its Hotline to receivve complainnts concern
                                                               ning suspeccted fraud,
waste, and
       a abuse in the RRB   B’s programms and operrations. The Hotline provides an
open lin
       ne of commmunication for
                             f individuaals to reporrt suspected
                                                               d criminal activity
                                                                          a        and
misman nagement/wwaste of RR RB funds.

The Hootline receiv
                  ved 695 conntacts durin
                                        ng this reporting period
                                                               d and 1,472 2 during
FY 2011. The follo owing table
                             e summarizzes Hotline referrals orr other activvities during
                                                                                        g this
reportin
       ng period.

                                         April 1, 2011 –
                                         A
      R
      Referral or Other Activity                                   Fiscal Ye
                                                                           ear 2011
                                       Sep
                                         ptember 30 0, 2011
    Reeferred to RRB
                  R     District or
                                                299                       599
                                                                            9
    Reegional Officce
    Othher (Hang Ups,
                   U
    Missdirected Calls,
                  C                             243                       519
                                                                            9
    Dissconnection ns, etc.)
    Reeferred to th
                  he Office of
                                                 60                       137
    Invvestigations
                  s
    Reeferred to Another Federal
                                                 54                       110
                                                                            0
    Agency
    Caalls with Insu
                   ufficient
    Infoormation to
                  o Make                         19                        41
                                                                            1
    Appropriate Referrals
                  R
    Dissposition Noot Yet
    Deetermined, Additional
                   A
                                                  8                        38
                                                                            8
    Infoormation is Being
    Obbtained
    Re
     eferred to RRB
                R   Bureau
                         us                      10                        21
                                                                            1
    Re
     eferred to a Railroad                        2                        6
    Re
     eferred to Railroad
                R
                                                  0                        1
    Me
     edicare




Semiannual Repo
              ort to the Congress
                         C                           011 – Septe
                                           April 1, 20         ember 30, 2011            25
 
 
                          Office
                               e of Inspe
                                        ector Gene
                                                 eral for the 




                                                                        
                               Railroad Re
                                         etirement Board



       O
       OTHER OVERS
                 SIGHT ACTIVI
                           VITIES

       A
       America
             an Recovery and
                         a   Reiinvestm
                                      ment Ac
                                            ct of 20
                                                   009
During this semiannual period d, the OIG continued
                                          c          th
                                                      heir efforts to aide in a transparent
Americaan Recovery                        A (ARRA) process byy preparing monthly
                    y and Reinvvestment Act
progresss reports in formats deeveloped byy the Recovvery Accountability and
Transpaarency Boarrd. These monthly
                               m        rep
                                          ports are puublished on n the Recovvery.gov
website and are als so available
                               e on the RRRB’s Recovvery Act Info ormation we ebpage.
During this semiannual reporting period, OI opened  d 112 additio  onal cases involving
fraudule
       ent receipt of
                   o extended d ARRA fun  nded UI bennefits.

       O
       Occupat
             tional Diisability
                              y Program
                                      m
The RRB  B’s occupational disab  bility progra
                                             am is a uniq
                                                        que benefit available only
                                                                                o     to
qualifyin
        ng railroad workers.
                    w           The qualificaation standa
                                                        ards for thiss benefit arre different than
                                                                                              t
those neeeded to qu ualify for a total
                                 t      and pe
                                             ermanent disability und der the Soccial Securityy
Act.

During this semiannual reporting period, the Office of Managem   ment and Budget
                                                                            B
approveed the use of
                  o RRB Form G-252, Self-Employ
                                         S           yment/Corp porate Officcer Work an
                                                                                      nd
Earningss Monitor. Form G-25  52 is intende
                                          ed to enhannce program integrity activities byy
capturing additiona
                  al informatio
                              on from disa           uitants who report self--employme
                                          ability annu                                ent or
work as a corporatee officer. While
                              W      we appplaud the RRB’s
                                                     R       deve
                                                                elopment of this form, we
believe that
        t    the RR
                  RB’s proced dures regard ding Form G-252 do not
                                                                n go far enough to
prevent improper payments.
                  p

On Marcch 2, 2009, the OIG issued a mem     morandum to the Board which co      ontained
several recommend    dations aim
                               med at enha ancing the integrity of the
                                                                    t occupa   ational disab
                                                                                           bility
program m. In this memorandum  m, we recom  mmended annual
                                                       a        rece
                                                                   ertification from
                                                                                f    all
disabilityy annuitants
                     s regarding
                               g work activvities and co
                                                       ontinued eligibility. Su ubsequentlyy, on
June 1, 2010, durin ng the apprroval stage for Form G-252,
                                                      G        we re
                                                                   eiterated ou ur
March 2,2 2009 reco ommendatio  ons and furrther stated
                                                      d that if the RRB does not implem   ment
all of our recommendations, th hen they sh hould requirre all curren
                                                                   nt and new disability
annuitan nts to compplete Form G-252.
                                G


Semiannual Repo
              ort to the Congress
                         C                             011 – Septe
                                             April 1, 20         ember 30, 2011              26
 
 
                                              Office
                                                   e of Inspe
                                                            ector Gene
                                                                     eral for the 




                                                                                         
                                                          Railroad Re
                                                                    etirement Board


We belieeve that annual eligibility recertificcation by all disability annuitants would
significa
        antly reduce
                   e the likeliho
                                ood of imprroper paym  ments which would outw    weigh the
additional administrative costss to the RRB.

The prevvention of improper paayments remains a priiority for OIG and we continue
                                                                             c         to
devote investigativee and auditt resources to the overrsight of this and other RRB
      ms. Previou
program           us Semiann nual Reportss to the Co  ongress, conntained addditional deta
                                                                                         ails
regardin
       ng our Marc ch 2, 2009 occupationa
                               o          al disabilityy recommen ndations.

             Railroad
             R      d Medica
                           are Fraud
                                   d Detection Con
                                                 ntracts: Lesson
                                                               ns
             L
             Learned
Medicarre fraud is a pervasive, multifacetted problem   m which ofte en involves elaborate
schemes. In orderr to release the fiscal pressures
                                             p          o the Medicare progra
                                                        on                       am and to
increasee the likeliho
                     ood of susttainability, we
                                             w must inccorporate in  nnovative oversight
                                                                                 o
techniquues success  sfully utilize
                                  ed in other settings.
                                              s         A
                                                        Analyzing   da
                                                                     ata in a seggmented
manner based upo    on either a particular
                                  p         geeographic zone
                                                         z     or type of Medica  are claim may
                                                                                             m
allow fra
        aud to rema  ain undeteccted. Our Railroad
                                            R         Meedicare Frau ud Detectio on Project
demonstrated that the optimum manner to       t analyze data is on a nationwid   de basis
including
        g all Medica are Carrierss and typess of Medica are claims. In addition, we must
concentrate on stopping Medicare fraud before it ha      appens including utilizing
technoloogically advvanced Med    dicare cardss, enhancinng providerr screening,, and focusing
on prediicative mod deling. While we recog    gnize that numerous
                                                         n           p
                                                                     prepayment   t edits are
already in place, a vast amount of fraud occurs despite these edits. e       An open
                                                                                 o      dialogue
regardinng Medicare  e oversight is imperativve to ensurring the inteegrity of the
                                                                                 e program.

On Aprill 7, 2011, OIG
                   O published a paperr titled Railrroad Medica are Fraud Detection
                                                                           D
Contracts: Lesson  ns Learned. In this pap
                                         per, we disccuss detailss regarding
                                                                           g our two lim
                                                                                       mited
scope Railroad
      R          Medicare fraud detection
                                        n contracts and the lesssons gaine ed from the
       nce. 7 Thes
experien           se lessons are
                              a summa   arized beloww.

      •      D
             Data analysis results are only as reliable
                                               r        as the
                                                           t original data sourcces utilized..
      •      The comparrtmentalizattion of Medicare claims processin
             T                                                       ng by geographic regio
                                                                                          on
             or by class of
                         o beneficia
                                   ary, as is un
                                               nique to the
                                                          e Railroad Medicare
                                                                     M        prrogram, ma
                                                                                         akes

                                                       
7
  Our Octoober 1, 2010 – March 31, 20   011 Semiannual Report to the Congresss contains add
                                                                                          ditional backgrround
information and contracct details relatiing to this projject.
Semiannual Repo
              ort to the Congress
                         C                                                    011 – Septe
                                                                    April 1, 20         ember 30, 2011   27
 
 
                                              Office
                                                   e of Inspe
                                                            ector Gene
                                                                     eral for the 




                                                                                         
                                                          Railroad Re
                                                                    etirement Board


             it difficult, if not impossible, to see
                                                   e the “big picture” and has a nega
                                                                                    ative impactt on
             efforts to ide  entify errone          udulent claims.
                                         eous or frau
      •      Data analysis reveals aberrances
             D                      a            which mayy be used as
                                                                    a audit or investigative
                                                                                           e
             le
              eads; however, any leaads developed will reqquire substa
                                                                     antial amou
                                                                               unts of audiit or
             in
              nvestigative
                         e work to co
                                    onfirm that the
                                                t claim(s) should noot have beeen paid.

      •      The “pay and chase” methodology
             T                        m             y of fighting
                                                                g Medicare fraud, even
                                                                                     n with the use
                                                                                                u
             of powerful software
                           s                        ective and work intenssive. Mediccare must
                                     tools, is ineffe
             in
              nstitute bettter controls on the fronnt-end to prrevent the disburseme
                                                                          d          ent of impro
                                                                                                oper
             payments.

A compllete copy off this paperr is available on our we
                                                      ebsite at ww
                                                                 ww.rrb.gov/oig.

             Proposa
             P      al to Imp
                            prove Bu
                                   usiness Efficiency at the Railro
                                                                  oad
             R
             Retiremeent Boarrd
The currrent econom  mic declinee and high rate
                                            r   of unem mployment has heighte    ened the
public’s awareness   s of the cost of government servicces and the  e need for greater
                                                                                g
accountability in alll areas of public
                                p      spendding. Budg  getary timingg and appro opriation
uncertainty, financial transparrency and close
                                            c     publicc scrutiny drrive the con
                                                                                ntinuing neeed
                                                                             8
for Fedeeral agencie es to achievve greater results
                                             r      withh fewer resoources. Ass such, the
RRB mu  ust utilize th
                     he most advvantageouss methods of   o productivvity while fu
                                                                                ully leveragiing
its availa
         able budgetary and sta  affing resou
                                            urces.

During FY
       F 2011, th he OIG cond ducted a sppecial review to identiffy the RRB’s current
weaknessses and thhe ways in which
                              w      they could be addressed. RRB senio    or managem ment
and key operating staff
                   s    were interviewed to obtain their feedba ack and identify concerns
with regard to agen
                  ncy-wide effficiency. Proposals
                                        P          fo
                                                    or future improvement were
generateed based on
                  o these disscussions and
                                        a through   h additional research and
                                                                           a analysiss.
The OIGG has previoously performed speciial reviews to address the concerrns of
manage ement and Congress
                   C         a to respo
                             and         ond to contemporary isssues impa  acting the
agency.

                                                       
8
 As define ed by OMB Circular No. A-1 11, “Preparation, Submissio on and Execution of the Budget,” Section  n
20.3: “Apppropriation me
                       eans a provisioon of law (not necessarily in
                                                                  n an appropria
                                                                               ations act) autthorizing the
expenditure of funds forr a given purp
                                     pose. Usually, but not alwayys, an approprriation provide
                                                                                             es budget
authority.””
Semiannual Repo
              ort to the Congress
                         C                                                    011 – Septe
                                                                    April 1, 20         ember 30, 2011          28
 
 
                                              Office
                                                   e of Inspe
                                                            ector Gene
                                                                     eral for the 




                                                                                         
                                                          Railroad Re
                                                                    etirement Board


In fulfillin
           ng its overs
                      sight responnsibility, the
                                               e Governme ent Accoun ntability Office (GAO)
identifiess and monitors those governmen
                                   g           nt agencies and prograams which are at high risk
for fraud d, waste, abbuse, and mismanage
                                  m             ment. The OIG considered the high h    risk are
                                                                                              eas
reported  d by the GA AO during its special re eview and identified se
                                                                     everal areas of concerrn
for the RRB
          R      which parallel tho
                                  ose previously identifie
                                                         ed by the GAO.

Based upon
        u      our rev
                     view, we coonclude thaat the RRB must respo   ond to new Federal
technoloogy directives while co oncurrently facing the possibility
                                                       p           o staffing deficiencies
                                                                   of         d          s and
the likeliihood of budgetary redductions. The
                                           T agencyy has made significant progress in     n
some arreas, howev   ver, program efficiencyy can be im
                                                      mproved and cost savings initiativves
have not been fully y utilized. Business
                                B        effficiency we
                                                      eaknesses have
                                                                   h     been identified in
                                                                                          n the
followingg areas:

      •      In
              ncreasing program
                        p                    der-funded mandates are further complicate
                                cossts and und                                        ed by
             economic annd budgeta
                                 ary uncertainty.

      •      Agency prod
             A         ductivity has declined relative to program
                                                          p       funding and the
                                                                              t railroad
                                                                                       d
             customer ba
                       ase.

      •      Rising Natio
             R          onal Railroa
                                   ad Retireme
                                             ent Investmment Trust (NNRRIT) adm
                                                                              ministrative
                                                                                         e
             costs have increased thhe RRB’s overall
                                             o       cost structure by
                                                                    b more tha
                                                                             an 70% while
             re
              etirement benefits app
                                   pear unsusttainable in future
                                                          f      yearss. 9

      •      The propose
             T          ed financial accounting
                                              g replacement system    m does not address
                                                                                 a
             non-integratted system weaknesse es and is crritically under-funded.

      •      A source of funding is needed
                                    n      for the agencyy’s electronic disabilityy record
             processing initiative.

      •      Call center integration and
             C                       a automa  ation have not been utilized to streamline
             program funnctions, min           ational expense, and improve customer serrvice.
                                    nimize opera

      •      A collaborative, agencyy-wide cloud computinng initiative that will assess IT cossts,
             benefits and
                        d relative rissk has not yet
                                                 y been esstablished.



                                                       
9
    See Pag
          ge 32 for addiitional details regarding the NRRIT.
Semiannual Repo
              ort to the Congress
                         C                                                    011 – Septe
                                                                    April 1, 20         ember 30, 2011   29
 
 
                        Office
                             e of Inspe
                                      ector Gene
                                               eral for the 




                                                                    
                             Railroad Re
                                       etirement Board



   •   Rising attritio
       R             on levels are forecast while the agency’s
                                                      a        ma
                                                                anagementt successioon
       plan lacks a funding so ource and an
                                          a adaptive long-term service
                                                                s      ben
                                                                         nefit plan ha
                                                                                     as
       not been esttablished.

   •   In
        neffective contract
                   c        ove
                              ersight threa
                                          atens the in
                                                     ntegrity of th
                                                                  he Railroad d Medicare
       program as the agencyy’s program  m workload and
                                                     a respon    nsibilities co
                                                                              ontinue to
       in
        ncrease.

   •   A headquartters space utilization study
                                          s    addre
                                                   essing long--term staffin
                                                                           ng and the
       im
        mpact of tellework policcy is neede
                                          ed.

We proppose that th
                  he Board an nd RRB ma anagement identify thee available options
                                                                           o       that will
counter these businness efficie
                              ency weaknnesses and initiate app
                                                              propriate coorrective
actions. Copies of this review
                             w, along with
                                         h our previo
                                                    ous reviewss, are located on our
website at www.rrbb.gov\oig.

       U
       Unemplo
             oyment Insuran
                    I       ce Prog
                                  gram
During this semiannual reporting period, we recomm   mended tha  at the RRB amend
question
       n 15 on Forrm UI-1 (03-04), Appliccation for Unemploym
                                                    U            ent Benefitts and
Employm ment Servic
                  ce, to solicit informatio
                                          on regardingg the receip
                                                                 pt of unempployment
benefits from anoth
                  her source such
                               s     as a state
                                          s     admin
                                                    nistered proogram. RRB   B concurred
                                                                                       d
with our recommen ndation and d they will amend the form
                                                     f     accord
                                                                dingly.

       O
       OUTREA
           EACH ACTIVITI
                      TIES
In addition to audit and investigative activvities, OIG staff membbers perform
                                                                             m outreach
activitiess as a means to furtheer the office
                                            e’s mission. The follow
                                                                  wing are exa
                                                                             amples of
outreach  h activities conducted during this reporting period.
                                                       p

       pector General was the keynote speaker
The Insp                               s          at the Midwesstern Interg
                                                                          governmenttal
Audit Fo
       orum and de
                 elivered a presentatio
                            p           n titled Stra
                                                    ategies to Remain
                                                               R       Effe
                                                                          ective in a
Changinng Environm
                 ment.

       pector General made a presentattion to students majoring in Gove
The Insp                                                               ernment
Oversigh
       ht and Insp
                 pection at Jo        ollege of Criminal Justice in New York. His
                             ohn Jay Co


Semiannual Repo
              ort to the Congress
                         C                           011 – Septe
                                           April 1, 20         ember 30, 2011              30
 
 
                          Office
                               e of Inspe
                                        ector Gene
                                                 eral for the 




                                                                          
                               Railroad Re
                                         etirement Board


presenta
       ation focuse
                  ed on gove
                           ernment aud
                                     diting stand
                                                dards and isssues pertin
                                                                       nent to the
Inspecto
       or General community
                  c         .

The Asssistant Inspe
                   ector Gene
                            eral for Inve
                                        estigations presented
                                                    p          information regarding
OIG’s mission
      m         and accomplish
                             hments at a conferencce attended  d by railroad
                                                                           d claims
examineers and employees rep presenting law firms sppecializing in railroad workers’
compensation.

OI staff members participated
                    p             in a numbe  er of Mediccare relatedd meetings including
several task
         t    forcess. These task forces provide
                                            p         an open
                                                         o      forum for health care
                                                                                    c    fraud
related communica
         c          ations and foster
                                f       a team approach   h to health care fraud
investigaations. Members of th  he various task
                                             t     forces include reppresentative  es from: the e
Departmment of Justtice; the Ceenters for Medicare
                                            M          an
                                                        nd Medicaid  d Services; the Office of  o
Inspectoor General for
                     f the Dep partment of Health and    d Human Se   ervices; thee Office of
Inspectoor General for
                     f the Officce of Perso onnel Management; the Federal Bureau   B        of
Investigaation; vario
                    ous State Po olice agenccies; various Medicaid Fraud Con      ntrol Units; and
Medicarre Program Safeguard Contractorrs. Since Railroad R         Meedicare is a national
programm, OI staff members
                    m         attend task fo orces in sevveral judiciaal districts.  Participatio
                                                                                                on in
Task Fo orce meetings allows th  he Special Agents to develop
                                                         d         the
                                                                     e necessaryy contacts and  a
informattion to ensuure that Railroad Mediccare fraud losses will be included      d in Medica are
investigaations. The ey also provvide an opp portunity forr OI Speciaal Agents to o become
familiar with
         w the mo   ost recent fraud schem  mes.

OA stafff attended the
                   t Midwesstern Intergo    overnmenta  al Audit Forrum. This forum
                                                                                f      is an
associattion of audit representatives from m Federal, state,
                                                       s      and loocal governnments. Th  he
primary purpose is to promote  e communiccation, coorrdination, and a coopera   ation among g
memberrs’ audit age encies to fa
                               acilitate the effectiveneess, efficien
                                                                    ncy, and ussefulness off
audits. The conferrence coverred several topics inclu   uding: strattegies to remain effecttive
in a changing envirronment; au udit resolutiion and corrrective actiion; potential duplicatioon
in goverrnment proggrams; and information   n security.

A numbe            aff memberrs participated in the Chicago
        er of OA sta                                C        Ch
                                                              hapter of thee Associatio
                                                                                      on
of Government Acc  countants (A
                              AGA). AGA  A provides a variety off networking and training
       nities for go
opportun           overnment auditing
                              a        pro
                                         ofessionalss. OA staff members currently
                                                                          c         se
                                                                                     erve
on the Executive
       E          Committee
                  C          a Membersship Directo
                             as                      or and Webbsite Director.

A supervvisory audittor serves as
                               a the OIG’’s represen
                                                   ntative at the
                                                                e RRB’s mo
                                                                         onthly
Informattion Techno
                  ology Steerring Commiittee meetinngs.

Semiannual Repo
              ort to the Congress
                         C                              011 – Septe
                                              April 1, 20         ember 30, 2011                31
 
 
                                              Office
                                                   e of Inspe
                                                            ector Gene
                                                                     eral for the 




                                                                                         
                                                          Railroad Re
                                                                    etirement Board


The Asssistant Inspe
                   ector Gene eral for Audit (AIGA) atttended the e 2011 Annu ual Councill of
Inspecto
       ors Generall for Integritty and Efficciency/GAO O Financial Statement
                                                                    S         Audit
Conference. This conference
                   c          e covered cu   urrent issue
                                                        es related to the annua
                                                                              al financial
statement audits annd related standards,
                               s             including to          e 2011 Yellow Book and
                                                        opics on the
the new Improper Payments
                   P          R
                              Requiremen     nts and Guidance.

      GA also atte
The AIG          ended the Federal
                            F         Auddit Executivve Council Annual
                                                                A      Con
                                                                         nference. This
                                                                                   T
conferen
       nce focusedd on the futture of acco
                                         ountability including Ne
                                                                ew Media, Performancce
Metrics, and Cloud Computing g in the Fedderal Secto or.

             O
             OPERATIONAL ISSU
                            UES
        owing opera
The follo           ational issu
                               ue impacts the
                                          t OIG’s ability
                                                   a      to effe
                                                                ectively carrry out its
oversighht role. This
                    s issue wouuld have to be remedie
                                                    ed with legislative chaange.

             N
             National
                    l Railroa
                            ad Investment Trust
                                          T
The NRR RIT is a tax
                   x-exempt enntity indepe
                                         endent of th
                                                    he Federal governmen
                                                                 g        nt which waas
establish
        hed by the Railroad Retirement and
                                         a Survivo  ors’ Improveement Act of
                                                                          o 2001
(RRSIA)) to manage e and invesst Railroad Retirementt assets. 10 The RRSIAA does not
provide the OIG with oversighht authority to conduct audits and investigatio
                                                                           ons of the
NRRIT; however, RRSIA
                   R      doess require th
                                         hat the NRRRIT report to
                                                                o the RRB.

On Marcch 31, 2008 8, this office
                                e issued a Statement
                                            S            o Concern addressing
                                                         of                      g the RRB’ss
passive relationship with the NRRIT.
                                N         Sin
                                            nce the rele ease of this statement,, there has
been noo corrective action dire ected toward d alleviating
                                                         g our NRRIIT oversight concerns;;
howeverr, the NRRIIT’s long-te  erm trust fun
                                            nd solvencyy has becom   me increasingly
questionnable. In fa
                   act, since itss inception,, the NRRIT T’s adminisstrative expe enses have  e
steadily risen and increased by b the overa all RRB cosst structure by more th   han 70%. ThisT
increasee can be paartially explaained by the number of  o fund man nagement staff
                                                                                 s      that wo
                                                                                              ould
be needded to mana age increassingly comp   plex risk-based investm ment strateg   gies and
transacttions. Howe ever, minim mal informattion is releaased publiccally to justiffy the recurrrent
increasees in administrative exxpenses. Despite
                                           D         the NRRIT’s lack of fund manageme
                                                                                 m            ent
transparrency and the extraord  dinary valuee of the fund’s assets, there has been a

                                                       
10
     As of August 31, 201
                        11, the RRB’ss investmentss in the NRRIT
                                                               T were valued
                                                                           d at approxim
                                                                                       mately $24 billion.

Semiannual Repo
              ort to the Congress
                         C                                                    011 – Septe
                                                                    April 1, 20         ember 30, 2011   32
 
 
                         Office
                              e of Inspe
                                       ector Gene
                                                eral for the 




                                                                     
                              Railroad Re
                                        etirement Board


consiste
       ently passiv ve approachh to fund managementt and we co           dentify the lack
                                                             ontinue to id
of oversight in this area as a critical
                               c        issue
                                            e.

Addition
       nally, a lack of NRRIT investmentt fund mana    agement acccountabilityy,
transparrency, and stringent finnancial oveersight can be precurso  ors to fraud
                                                                               d, waste, an
                                                                                          nd
abuse. Within the Federal agency specttrum there is no compa        arable exammple where e
Federal program as   ssets are completely outside
                                            o       of th
                                                        he jurisdiction of a Fed
                                                                               deral agenccy’s
appointe ed Inspectoor General. However, the NRRIT    T fund which  h supports the Railroaad
Retirement program   m remains outside
                                o        the
                                           e purview off those app pointed to protect the
interestss of the program’s benneficiaries and
                                           a tax-payying public.

To ensu
      ure the integgrity, econoomy, and long-term viaability of the
                                                                  e NRRIT, RRB
                                                                             R
manageement must establish performanc
                               p          ce audit requirements that
                                                                   t  will stre
                                                                              engthen
administtrative and financial ovversight and
                                           d ensure fu
                                                     und transpa  arency.

       L
       LEGISL
            LATIVE & REG
                       GULATO
                            ORY RE
                                 EVIEW
The Insspector Gen neral Act off 1978, as amended,
                                          a         re
                                                     equires thee Inspector General to
review existing
        e        and
                   d proposed d legislation
                                          n and regula
                                                     ations relating to the programs
                                                                            p         annd
operatioons of the agency.
                   a        Thhe OIG did not make any
                                                    a comments during this   t   reportin
                                                                                        ng
period.




Semiannual Repo
              ort to the Congress
                         C                            011 – Septe
                                            April 1, 20         ember 30, 2011            33
 
 
     APPENDICES
                                                                         Page
Appendix Title
                                                                          No.
    A       Office of Inspector General Reports and Other Publicly        35
            Available Papers Issued
    B       Audit Reports with Questioned Costs or with                   36
            Recommendations that Funds be Put to Better Use
    C       Report on Receivables, Waivers, and Recoveries                37
    D       Significant Matters                                           39
    E       Peer Reviews                                                  40
    F       Reports Prepared by Management                                41
    G       Reporting Requirements                                        48
    H       Acronyms                                                      49
    I       Legal References                                              50




Semiannual Report to the Congress   April 1, 2011 – September 30, 2011    34
 
 
 


          Appendix A – Office of Inspector General Reports and Other
          Publicly Available Papers Issued
           •   Railroad Medicare Fraud Detection Contracts: Lessons Learned, April 7, 2011

           •   Audit of Controls Over Railroad Medicare Contract Costs, April 20, 2011

           •   Audit of Railroad Retirement Act Benefit Overpayments and Internal Controls,
               June 29, 2011

           •   Review of the Railroad Retirement Board’s Security Patch Management Process,
               July 7, 2011

           •   Audit of Internal Controls Over Dummy Vendor Transactions, August 4, 2011

           •   Office of Inspector General’s Proposal to Improve Business Efficiency at the
               Railroad Retirement Board, September 21, 2011

           •   Inspection of the Railroad Retirement Board’s Agency Enterprise General
               Information Support System Certification and Accreditation, September 29, 2011

           •   Inspection of the Railroad Retirement Board’s Financial Management System’s
               Continuous Monitoring Program, September 29, 2011

           •   Evaluation of the Railroad Retirement Board’s Benefit and Payment Operations
               System Continuous Monitoring, September 30, 2011


    All publically available audit reports and papers are available on our website
    at www.rrb.gov/oig.




    Semiannual Report to the Congress         April 1, 2011 – September 30, 2011         35
     
     
 


            Appendix B – Audit Reports with Questioned Costs or
            with Recommendations That Funds be Put to Better Use
     

                                                    Audit Reports
                                                                    Amount of         Amount of
                                                        with
                                                                    Questioned       Unsupported
                                                     Questioned
                                                                      Costs             Costs
                                                       Costs
    A. For which no management decision had
    been made by April 1, 2011
                                                          2          $2.7 Million         0
    B. Which were issued from April 1, 2011
    through September 30, 2011
                                                          1          $7.1 Million         0
    Subtotal (A + B)                                      3          $9.8 Million         0
    C. For which a management decision was
    made between April 1, 2011 through                    3          $9.8 Million         0
    September 30, 2011
        (i) dollar value of disallowed costs              0                0              0
        (ii) dollar value of costs not disallowed         0                0              0
    D. For which no management decision had
    been made by September 30, 2011
                                                          0                0              0
    E. Report for which no management
    decision was made within six months of                0                0              0
    issuance




                                                               Audit Reports With
                                                               Recommendations
                                                                                      Dollar Value
                                                              that Funds Be Put to
                                                                   Better Use
    A. For which no management decision had been made by
    April 1, 2011
                                                                       0                   0
    B. Which were issued from April 1, 2011 through
    September 30, 2011
                                                                       0                   0
    C. Subtotal (A + B)                                                0                   0
        (i) dollar value of disallowed costs                           0                   0
        (ii) dollar value of costs not disallowed                      0                   0
    D. For which no management decision had been made by
    September 30, 2011
                                                                       0                   0
    E. Report for which no management decision was made
    within six months of issuance
                                                                       0                   0




    Semiannual Report to the Congress                April 1, 2011 – September 30, 2011        36
     
     
 


          Appendix C – Report on Receivables, Waivers, and
          Recoveries
    The FY 1999 appropriations language for the OIG requires the reporting of additional
    information concerning actual collections, offsets, and funds put to better use achieved
    as a result of the OIG’s activities.

                               Office of Investigations
    Recoveries realized by the RRB resulting from court-ordered restitution and civil
    damages:

                                                      Amount
                              Fiscal Year
                                                     Recovered
                                  1999            $ 855,655
                                  2000            $1,038,134
                                  2001            $ 990,356
                                  2002            $ 785,843
                                  2003            $ 947,876
                                  2004            $ 646,273
                                  2005            $ 844,183
                                  2006            $1,281,680
                                  2007            $1,347,049
                                  2008            $1,389,489
                                  2009            $1,097,227
                                  2010            $1,118,256
                                  2011            $2,293,530

     




    Semiannual Report to the Congress        April 1, 2011 – September 30, 2011          37
     
     
 




                                                                Office of Audit

                                      Funds to be               Funds
                                                                              Receivables              Recoveries
                     Report           put to better            Agreed by
                                                                              Established   Waivers     to Date 11
                                           use                Management
                         99-03                  $50,850             $50,850       $50,850    $50,490          $360
                         99-14               $83,000                $83,000       $34,423         $0       $30,584
                         99-16           $48,000,000            $48,000,000            $0         $0   $19,400,000
                         99-17           $11,000,000            $11,000,000            $0         $0    $1,604,545
                         00-16                $235,000             $235,000            $0         $0      $253,846
                         03-06                $306,129                  N/A            $0         $0      $306,129
                         04-06                $821,000             $821,000      $604,429     $5,564      $629,688
                         04-10                $400,000             $400,000            $0         $0      $761,151
                         05-03             $1,800,000            $1,800,000     $4,523,997 $339,244     $2,209,064
                         05-06                  $10,000             $10,000            $0         $0       $42,915
                         05-07             $1,070,000            $1,070,000       $49,943         $0       $91,164
                         05-10             $2,600,000            $2,600,000                 $311,000
                         06-04              $257,000              $257,000
                         06-05                    $2,100             $2,100            $0         $0            $0
                         06-06                $200,000             $200,000       $13,651         $0       $20,671
                         09-02                $600,000             $600,000          $320         $0      $605,114
                         10-09             $3,355,408            $3,355,408            $0         $0            $0
                         10-13              $212,038                $92,412            $0         $0            $0




                                                           
    11
         Both overpayments and underpayments are included in this column.

    Semiannual Report to the Congress                                  April 1, 2011 – September 30, 2011            38
     
     
 


            Appendix D – Significant Matters
    The OIG has identified deficiencies in controls over non-integrated subsystems and
    information security as significant matters. A summary of the issues and related
    recommendations for corrective action follow.

               Internal Control over Non-Integrated Subsystems
    The OIG identified the RRB’s non-integrated subsystems as a material weakness.
    The RRB’s financial reporting control structure is not comprehensive with respect to the
    reconciliation of the general ledger to non-integrated subsystems. The agency has
    taken action to address this material weakness by performing reconciliations of the
    various non-integrated subsystems that support financial accounting. Although this
    shows that progress is being made, the progress is not yet sufficient to ensure that all of
    the reconciliations are properly implemented.

    Non-Integrated Subsystems                  March 11, 2010       Report OIG 10-03, #2


                                          Information Security
    The OIG previously evaluated information security pursuant to the provisions of FISMA
    and concluded that the RRB has not yet achieved an effective FISMA-compliant
    security program. Although agency managers are working to strengthen controls,
    management action in response to the following OIG recommendations had either not
    been completed as of the end of the current semiannual reporting period or had not
    been in place long enough to permit evaluation.

    Internal Control Over Certification        July 18, 2005        Report OIG 05-08, #4
    and Accreditation
                                               September 30, 2008   Report OIG 08-05, #2 & 7
                                               November 12, 2009    Report OIG 10-01, #1 & 5
                                               September 28, 2011   Report OIG 11-10, #1 – 3
                                               September 28, 2001   Report OIG 11-11, #1 – 5
                                               September 29, 2011   Report OIG 11-12, #1 – 5


     




    Semiannual Report to the Congress              April 1, 2011 – September 30, 2011          39
     
     
 


           Appendix E – Peer Reviews
    Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act
    requires Inspectors General to provide information regarding peer reviews in their
    Semiannual Reports to the Congress.

           Office of Audit
    In general, Federal audit organization may receive a peer review rating of pass; pass
    with deficiencies; or fail.

    The results of OA’s most recent peer review (which was for the year ended
    March 31, 2009) were transmitted on August 24, 2009. OA received a peer review
    rating of pass. This peer review did not contain any recommendations.

    OA did not conduct any peer reviews during this semiannual reporting period.

           Office of Investigations
    In general, Federal OIG investigative organizations may receive a peer review rating of
    fully compliant, compliant, or not compliant with the quality standards established by the
    Council of the Inspectors General on Integrity and Efficiency and the Attorney General’s
    Guidelines for Inspectors General with law enforcement authority based on Section 6(e)
    of the Inspector General Act, as amended.

    The results of OI’s most recent peer review (which was for the FY ended
    September 30, 2007) were transmitted on March 26, 2008. OI received a peer review
    rating of fully compliant. There are currently no outstanding recommendations.

    During this reporting period, OI reviewed the investigative operations of the Office of
    Inspector General for the U.S. Department of State and the Broadcasting Board of
    Governors. The results of OI’s review were in draft form at the end of this reporting
    period and will be discussed in our next Semiannual Report to the Congress.



                                 




    Semiannual Report to the Congress         April 1, 2011 – September 30, 2011          40
     
     
 


          Appendix F – Reports Prepared by Management


                   Final Action on Audits with Disallowed Costs
    For the 6-Month Period Ending                                Number of            Disallowed
    September 30, 2011                                          Audit Reports           Costs

    A.   Audit reports, with management decisions, on
         which final action had not been taken at the                 0                  $0
         beginning of the period.
    B.   Audit reports on which management decisions
         were made during the period.                                 0                  $0

    C.   Total audit reports pending final action during
         the period. (A + B)                                          0                  $0

    D.   Audit reports on which final action was taken
         during the period.

         1.    Recoveries

               (a) Collections and offsets                            0                  $0

               (b) Property                                           0                  $0

               (c) Other                                              0                  $0

         2.    Recovery Waived                                        0                  $0

         3.    Total of 1 and 2                                       0                  $0

    E.   Audit reports needing final action at the end of
         the period (C - D.3).                                                           $0
                                                                      0




    Semiannual Report to the Congress            April 1, 2011 – September 30, 2011    41
     
     
      


                    Management Report on Final Action on Audits with
                   Recommendations to Put Funds to Better Use for the
                       6-Month Period Ending September 30, 2011
                                                                       Number of                  Funds to be
                                                                      Audit Reports            Put to Better Use
A.         Audit reports, with management decisions, on
           which final action had not been taken at the
           beginning of the period.                                         5                     $4,249,920*

B.         Audit reports on which management decisions
           were made during the period.                                     0                           $0

C.         Total audit reports pending final action during
           the period. (A + B)                                              5                     $4,249,920

D.         Audit reports on which final action was taken
           during the period.

           1.     Value of recommendations implemented
                  (completed)                                               0                           $0

           2.     Value of recommendations that
                  management concluded should not or
                  could not be implemented (completed)                      0                           $0

           3.     Total of 1 and 2                                          0                           $0

E.         Audit reports needing final action at the end of
           the period (C - D.3)                                             5                     $4,249,920




         * Comprised of the following amounts: $2,100 from Audit Report 06-05, Review of Compliance with
         Provisions of the Railroad Retirement Act Governing the Initial Award of Benefits, $200,000 from Audit
         Report 06-06, Review of the Termination and Suspension of Benefits Paid Under the Railroad Retirement
         Act, $600,000 from Audit Report 09-02, Fiscal Year 2008 Financial Statement Audit Letter to
         Management, $3,355,408 from Audit Report 10-09, Audit of Internal Controls over Medicare Premium
         Transfers Between the Railroad Retirement Board and the Centers for Medicare and Medicaid Services,
         and $92,412 from 10-13 Railroad Medicare Services Billed with Dates of Service after Beneficiaries’
         Dates of Death.


         Semiannual Report to the Congress              April 1, 2011 – September 30, 2011                42
          
          
        


                                                           


Management Statement on Resolved Audit Reports Over 12 Months
    Old with Final Action Pending as of September 30, 2011 
                                                    Disallowed Funds to be Put
Report                                     Date       Costs     to Better Use       Reason Action Not Completed
Fiscal Year 2000 Financial Statement      2/23/01     NONE          NONE       While help desk procedures have been
Audit (01-03)                                                                  upgraded, the Bureau of Information
                                                                               Services is still developing procedures
                                                                               to close the last open recommendation.
                                                                               Work continues.

Review of Information Security at the     2/5/02      NONE          NONE       Information Services has closed 26 out
Railroad Retirement Board (02-04)                                              of 28 recommendations. A complete
                                                                               review has not yet been completed.
                                                                               Bureau of Information services will
                                                                               provide documentation once review is
                                                                               complete. Work continues.

Inspection of Unverified Records in the   3/20/03     NONE          NONE       Programs reviewed all 20,000 records
RRB’s Employment Data Maintenance                                              and are using a recently implemented
System (03-06)                                                                 tracking system to close the last
                                                                               recommendation, however due to
                                                                               ARRA and WHBAA work, project was
                                                                               extended to 12/31/2011 to be
                                                                               completed.

Review of Internal Control Over the       5/5/05      NONE          NONE       The Chief Actuary is still reviewing their
Actuarial Projection Process (05-04)                                           options to best implement this
                                                                               recommendation.

Review of LAN, LAN Security Scan and      6/7/05      NONE          NONE       These contractor-prepared confidential
Web-based Applications (DSD)                                                   reports contained 45
                                                                               recommendations, with 39 closed thus
                                                                               far. Documentation will be submitted
                                                                               for 3 recommendations and testing is
                                                                               still needed for remaining.

Review of Access Controls in the End-     7/18/05     NONE          NONE       Information Services has closed 14 of
User Computing General Support                                                 15 recommendations in this
System (05-08)                                                                 confidential report. As reported
                                                                               previously, new risk assessment still
                                                                               must be submitted for remaining case.
                                                                               Work continues.

Fiscal Year 2005 Evaluation of            9/28/05     NONE          NONE       Bureau of Information Services is
Information Security at the Railroad                                           taking steps to train IT owners to use
Retirement Board (05-11)                                                       SharePoint POAM website. Work
                                                                               continues.




           Semiannual Report to the Congress             April 1, 2011 – September 30, 2011                     43
            
            
        


                                                          


Management Statement on Resolved Audit Reports Over 12 Months
    Old with Final Action Pending as of September 30, 2011 
                                                   Disallowed Funds to be Put
Report                                    Date       Costs     to Better Use      Reason Action Not Completed
Accuracy and Reliability of GPRA         1/30/06     NONE          NONE       Programs have closed five of the seven
Performance Measures: Timeliness of                                           recommendations. One
Non-Disability Survivor Annuity                                               recommendation has been delayed
Payments (06-03)                                                              due to higher priority project and the
                                                                              other recommendation, a new
                                                                              Operations Analyst was hired which will
                                                                              be briefing and trained.

Review of Compliance with the            4/12/06     NONE          $2,100     Programs staff closed four of the five
Provisions of the Railroad Retirement                                         recommendations. Requirements are
Act Governing the Initial Award of                                            currently in development for
Benefits (06-05)                                                              programming changes to the EDM
                                                                              system.

Review of the Termination and            5/24/06     NONE         $200,000    Programming work on a referral system
Suspension of Benefits Paid Under the                                         is pending review.
Railroad Retirement Act (06-06)
Review of Incident Handling and          8/24/06     NONE          NONE       Work continues on training material
Reporting at the Railroad Retirement                                          and progress has been made to the
Board (06-09)                                                                 updating of policies.

Audit of the DAISY/CHICO Component       3/9/07      NONE          NONE       Recent IT changes are pending review
Application of the RRA Benefit Payment                                        as resources were diverted to higher
Major Application System (07-02)                                              priority projects.


Audit of the State Wage Match Data       3/28/07     NONE          NONE       Coordination is still required with
Transmission Controls (07-04)                                                 outside agencies. Programs
                                                                              completed and implemented one of the
                                                                              two remaining recommendations. The
                                                                              last recommendation is schedule to be
                                                                              completed in FY12.

Evaluation of the Railroad Retirement    7/30/07     NONE          NONE       New CPO was appointed. Additional
Board’s Privacy Program (07-06)                                               funding and resources are needed. Of
                                                                              the 16 recommendations, 13 have
                                                                              been closed with 3 targeted for
                                                                              completion during FY12.

Audit of Federal Income Taxes Withheld   7/30/07     NONE          NONE       Coordination is required with another
from Railroad Retirement Annuities                                            org. Five of the six recommendations
(07-07)                                                                       have been closed, with the remaining
                                                                              one targeted for completion in FY12.




           Semiannual Report to the Congress            April 1, 2011 – September 30, 2011                   44
            
            
        


                                                             


Management Statement on Resolved Audit Reports Over 12 Months
    Old with Final Action Pending as of September 30, 2011 
                                                      Disallowed Funds to be Put
Report                                      Date        Costs     to Better Use       Reason Action Not Completed
Fiscal Year 2007 Evaluation of             9/27/07      NONE          NONE       Policy and procedures are still being
Information Security at the Railroad                                             developed. Recommendations are
Retirement Board (07-08)                                                         targeted for completion in FY12.

Audit of Controls to Safeguard Sensitive   9/27/07      NONE          NONE        Coordination is required with an
Personally Identifiable Information                                               outside contractor on 1
(07-09)                                                                           recommendation and work plans,
                                                                                  policy and procedures are still being
                                                                                  developed for all other
                                                                                  recommendations. Target date for
                                                                                  completion is FY12.

Fiscal Year 2007 Financial Statement        3/6/08      NONE          NONE        Bureau of Fiscal Operations
Audit Letter to Management (08-01)                                                implemented enhanced controls in
                                                                                  FY10. OIG will reassess once sufficient
                                                                                  time has lapse.

Evaluation of Information Security for     09/26/08     NONE          NONE        Work plans, policy and/or procedures
the RRB’s Financial Interchange Major                                             continue with target completion in FY12
Application – Abstract (08-03)                                                    and one in FY13.

Fiscal Year 2008 Evaluation of             09/26/08     NONE          NONE        Coordination is still required with
Information Security at the RRB (08-05)                                           outside contractor; and additional
                                                                                  documentation is requested by OIG.

Fiscal Year 2008 Financial Statement       03/24/09     NONE         $600,000     Review and updating of
Audit Letter to Management (09-02)                                                documentations along with case
                                                                                  reviews are currently being performed
                                                                                  on remaining recommendations. Work
                                                                                  continues.

Audit of Internal Control Over Accounts    03/31/09     NONE          NONE        Documentation was submitted for
Payable (09-03)                                                                   implementation on one
                                                                                  recommendation, another requires
                                                                                  coordination with another organization
                                                                                  and one is awaiting the results of a
                                                                                  quarterly review. Work continues.

Audit of the Railroad Medicare Integrity   09/25/09     NONE          NONE        OIG requested additional
Program at Palmetto Government                                                    documentations since previous
Benefits Administrators (09-04)                                                   documentation was not accepted. In
                                                                                  addition, coordination is also required
                                                                                  with outside agency on those
                                                                                  recommendations issued to the outside
                                                                                  agency.



           Semiannual Report to the Congress               April 1, 2011 – September 30, 2011                    45
            
            
        


                                                             


Management Statement on Resolved Audit Reports Over 12 Months
    Old with Final Action Pending as of September 30, 2011 
                                                      Disallowed Funds to be Put
Report                                       Date       Costs     to Better Use       Reason Action Not Completed
Audit of the General and Application       09/30/09     NONE          NONE       In the process of developing work
Controls in the Financial Management                                             plans, policy and/or procedures
Major Application System (09-05)                                                 continue with target completion in
                                                                                 FY12.

Fiscal Year 2009 Evaluation of             11/12/09     NONE          NONE       The Bureau of Information Services will
Information Security (10-01)                                                     review and take the necessary
                                                                                 action(s). Target completion in FY12.

Fiscal Year 2009 Financial Statement       03/11/10     NONE          NONE       No change. Awaiting OIG
Audit Letter to Management (10-03)                                               reassessment based on documentation
                                                                                 submitted to OIG for implementation on
                                                                                 last open recommendation. OIG
                                                                                 indicated they will assess the request
                                                                                 for closure during the FY2011 financial
                                                                                 statement audit.

Review of Statistical Methods Employed     05/04/10     NONE          NONE       The Bureau of Actuary (BOA) is
in the Financial Interchange                                                     reviewing documentation and will take
Determination (10-06m)                                                           the necessary action(s) and coordinate
                                                                                 with the Bureau of Information Services
                                                                                 for programming services.

Review of the Technical Approach and       05/19/10     NONE          NONE       The Bureau of Actuary is reviewing
Methodology Used to Determine the                                                documentation and will take the
Annual Financial Interchange Amount                                              necessary action(s).
for the Year Ended September 30, 2008
(10-07m)

Audit of Internal Controls over Medicare   05/21/10     NONE        $3,355,408   Work continues in the development of
Premium Transfers Between the                                                    work plans, policy and/or procedures
Railroad Retirement Board and Centers                                            with target completion in FY12.
for Medicare and Medicaid Services
(10-09)

Review of the Accuracy of the Financial    05/25/10     NONE          NONE       The Bureau of Actuary is reviewing
Interchange as Executed for the Year                                             documentation and will take the
Ended September 30, 2008 (10-10)                                                 necessary action(s).

Audit of Unilateral Disability Freeze      08/12/10     NONE          NONE       Work continues in the development of
Determinations (10-11)                                                           work plans, policy and/or procedures
                                                                                 with target completion in FY12.

Audit of the Account Benefits Ratio        09/29/10     NONE          NONE       The Bureau of Actuary reviewed and
(10-12)                                                                          will take the necessary action(s).



           Semiannual Report to the Congress               April 1, 2011 – September 30, 2011                  46
            
            
        


                                                              


Management Statement on Resolved Audit Reports Over 12 Months
    Old with Final Action Pending as of September 30, 2011 
                                                       Disallowed Funds to be Put
Report                                        Date       Costs     to Better Use      Reason Action Not Completed
Railroad Medicare Services Billed with      09/30/10     NONE         $92,412     Coordination continues with outside
Dates of Service after the Beneficiaries’                                         organization.
Dates of Death (10-13)




           Semiannual Report to the Congress                April 1, 2011 – September 30, 2011                  47
            
            
 


           Appendix G – Reporting Requirements
    Act Reference       Inspector General Reporting Requirements              Page(s)
    Section 4(a) (2)    Review of Legislation and Regulations                     33
    Section 5(a) (1)    Significant Problems, Abuses, and Deficiencies              39
    Section 5(a) (2)    Recommendations With Respect to Significant                 39
                        Problems, Abuses, and Deficiencies
    Section 5(a) (3)    Prior Significant Recommendations Not Yet                   39
                        Implemented
    Section 5(a) (4)    Matters Referred to Prosecutive Authorities              4, 18
    Section 5(a) (5)    Instances Where Information Was Refused                  None
    Section 5(a) (6)    List of Audit Reports                                       35
    Section 5(a) (7)    Summary of Each Significant Report                      4 – 14
    Section 5(a) (8)    Statistical Tables on Management Decisions on               36
                        Questioned Costs
    Section 5(a) (9)    Statistical Tables on Management Decisions on               36
                        Recommendations That Funds be Put to Better
                        Use
    Section 5(a) (10)   Summary of Each Audit Report Over 6 Months                  15
                        Old for Which No Management Decision Has
                        Been Made
    Section 5(a) (11)   Description and Explanation for Any Significant         None
                        Revised Management Decision
    Section 5(a) (12)   Information on Any Significant Management               None
                        Decisions With Which the Inspector General
                        Disagrees



    Act Reference       Management Reporting Requirements                     Page(s)
    Section 5(b) (1)    Comments Deemed Appropriate                         Transmittal
                                                                                 Letter
    Section 5(b) (2)    Statistical Table on Final Action on Disallowed             41
                        Costs
    Section 5(b) (3)    Statistical Table on Final Action to Put Funds to           42
                        Better Use
    Section 5(b) (4)    Statement on Audit Reports With Final Action          43 – 47
                        Pending




    Semiannual Report to the Congress          April 1, 2011 – September 30, 2011         48
     
     
 


           Appendix H – Acronyms
    Acronym     Explanation


    AEGIS       Agency Enterprise General Information Support
                System
    AGA         Association of Government Accountants
    AIGA        Assistant Inspector General for Audit
    ARRA        American Recovery and Reinvestment Act of 2009
    FFS         Federal Financial System
    FISMA       Federal Information Security Management Act of 2002
    FY          Fiscal Year
    GAO         U.S. Government Accountability Office
    IT          Information Technology
    NRRIT       National Railroad Retirement Investment Trust
    OA          Office of Inspector General for the Railroad
                Retirement Board – Office of Audit
    OCR         Optical Character Recognition
    OI          Office of Inspector General for the Railroad
                Retirement Board – Office of Investigations
    OIG         Office of Inspector General for the Railroad
                Retirement Board
    POAM        Plan of Action and Milestones
    RRA         Railroad Retirement Act
    RRB         Railroad Retirement Board
    RRSIA       Railroad Retirement and Survivors’ Improvement Act
                of 2001
    RUIA        Railroad Unemployment Insurance Act
    SI          Sickness Insurance
    UI          Unemployment Insurance
                                                                       




    Semiannual Report to the Congress   April 1, 2011 – September 30, 2011   49
     
     
 


          Appendix I – Legal References

    Federal:
    American Recovery and Reinvestment Act of 2009 – P.L. 111–5

    Dodd-Frank Wall Street Reform and Consumer Protection Act - P.L. 111–203

    False Claims Act – 31 U.S.C. §§ 3729 – 3733

    False Statements – 18 U.S.C. § 1001, et. seq.

    Federal Information Security Management Act of 2002 – 44 U.S.C. § 3531, et. seq.

    Health Care Fraud – 18 U.S.C. § 1347

    Inspector General Act of 1978, as amended – 5 U.S.C. App. 3

    Railroad Retirement Act – 45 U.S.C. § 231, et. seq.

    Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.

    Railroad Retirement and Survivors’ Improvement Act of 2001 – P.L 107–90

    Social Security Act – 42 U.S.C. § 301, et seq.

    Theft of Public Money/Government Funds/Government Property – 18 U.S.C. § 641

    Worker, Homeownership, and Business Assistance Act of 2009 – P.L. 111-92




    Semiannual Report to the Congress        April 1, 2011 – September 30, 2011        50
     
     
 

                           REPORT

          FRAUD, WASTE, AND ABUSE




             




                  Call the OIG Hotline:
                         1-800-772-4258

                 E-mail: hotline@oig.rrb.gov

    The OIG cannot ensure confidentiality to persons who provide
    information via e-mail. Do not send information by e-mail that
                you do not want a third party to read.

                Write: RRB, OIG Hotline Officer
                       844 N. Rush Street
                 Chicago, Illinois 60611-2092
 


 
